<html>
<title> - NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2009 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




                         [H.A.S.C. No. 110-124]



                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2009

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

   BUDGET REQUEST FROM THE U.S. CENTRAL COMMAND AND THE U.S. SPECIAL 
                           OPERATIONS COMMAND

                               __________

                              HEARING HELD

                             MARCH 5, 2008

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13




                  U.S. GOVERNMENT PRINTING OFFICE
44-780                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               ROSCOE G. BARTLETT, Maryland
VIC SNYDER, Arkansas                 HOWARD P. ``BUCK'' McKEON, 
ADAM SMITH, Washington                   California
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
MIKE McINTYRE, North Carolina        WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
ROBERT A. BRADY, Pennsylvania        W. TODD AKIN, Missouri
ROBERT ANDREWS, New Jersey           J. RANDY FORBES, Virginia
SUSAN A. DAVIS, California           JEFF MILLER, Florida
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
MADELEINE Z. BORDALLO, Guam          ROB BISHOP, Utah
MARK E. UDALL, Colorado              MICHAEL TURNER, Ohio
DAN BOREN, Oklahoma                  JOHN KLINE, Minnesota
BRAD ELLSWORTH, Indiana              CANDICE S. MILLER, Michigan
NANCY BOYDA, Kansas                  PHIL GINGREY, Georgia
PATRICK J. MURPHY, Pennsylvania      MIKE ROGERS, Alabama
HANK JOHNSON, Georgia                TRENT FRANKS, Arizona
CAROL SHEA-PORTER, New Hampshire     BILL SHUSTER, Pennsylvania
JOE COURTNEY, Connecticut            THELMA DRAKE, Virginia
DAVID LOEBSACK, Iowa                 CATHY McMORRIS RODGERS, Washington
KIRSTEN E. GILLIBRAND, New York      K. MICHAEL CONAWAY, Texas
JOE SESTAK, Pennsylvania             GEOFF DAVIS, Kentucky
GABRIELLE GIFFORDS, Arizona          DOUG LAMBORN, Colorado
NIKI TSONGAS, Massachusetts
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                 Mike Casey, Professional Staff Member
               Stephanie Sanok, Professional Staff Member
                    Caterina Dutto, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS

                                  2008

                                                                   Page

Hearing:

Wednesday, March 5, 2008, Fiscal Year 2009 National Defense 
  Authorization Act--Budget Request from the U.S. Central Command 
  and the U.S. Special Operations Command........................     1

Appendix:

Wednesday, March 5, 2008.........................................    51
                              ----------                              

                        WEDNESDAY, MARCH 5, 2008
  FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
 FROM THE U.S. CENTRAL COMMAND AND THE U.S. SPECIAL OPERATIONS COMMAND
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     3
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Fallon, Adm. William J., USN, Commander, U.S. Central Command....     5
Olson, Adm. Eric T., USN, Commander, U.S. Special Operations 
  Command........................................................     7

                                APPENDIX

Prepared Statements:

    Fallon, Adm. William J.......................................    55
    Olson, Adm. Eric T...........................................    89

Documents Submitted for the Record:

    United States Special Operations Command FY 2009 Budget 
      Highlights.................................................   115

Witness Responses to Questions Asked During the Hearing:

    Mr. Skelton..................................................    10

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
  FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
 FROM THE U.S. CENTRAL COMMAND AND THE U.S. SPECIAL OPERATIONS COMMAND

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, March 5, 2008.
    The committee met, pursuant to call, at 10:06 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Ladies and gentlemen, this is a very 
important meeting of the House Armed Services Committee to take 
testimony on the posture of our two most important combat 
commands, the Central Command and the Special Operations 
Command.
    But first a couple of administrative items.
    This hearing will stop promptly at one o'clock because our 
witnesses have other commitments, and we will do our best to 
stay within the five-minute rule, and that way we want to get 
as many, if not all, of the members the opportunity to ask 
questions within the five minutes. And you have been very, very 
good in the past on that, and I would hope that would continue.
    I gave notice at the last hearing, but again let me say 
that the hearing on March 12 with the Pacific Command (PACOM), 
we will begin the questioning on the bomb rule by reverse 
seniority based upon, of course, who is here at the falling of 
the gavel.
    And with those two, we should proceed and welcome Admiral 
William Fallon, commander of Central Command (CENTCOM); Admiral 
Eric Olson, command of Special Operations Command (SOCOM), to 
be with us today.
    And welcome, both of you, and thank you for the excellent 
work that you do, and thank you for the men and women that you 
lead. Those who serve with you are truly in the lead of 
America's efforts, both militarily and as we face the Nation in 
critical parts of the world. We couldn't be more proud of you 
or the people you have in your commands.
    Admiral Keating, the combatant commander for the Pacific 
Command, was recently quoted as saying, ``The readiness of our 
forces is affected by combat operations in Afghanistan and 
Iraq.'' Admiral Keating added that ``We are a higher-risk 
state,'' and I suspect he was engaging an understatement when 
he said that PACOM--his command--had only to adjust his 
strategic plans a little bit since 30,000 of the troops 
assigned to him are deployed in the Central Command.
    This is just the latest signal that we are facing increased 
strategic risk. Admiral Mullen sat at the same table you are, 
gentlemen, not all that long ago and called the level of risk 
significant. Anyone who has been paying attention knows that 
aren't many, if any, units at home in the United States that 
are ready to conduct full-spectrum combat operations. And it is 
interesting to note General Casey's answer to a question 
regarding readiness and the timeliness within which it would 
take to respond to call for the unexpected.
    And the only reason we can't refer to the Army as stressed 
and not broken, in my opinion, is because of the commitment and 
sense of duty demonstrated by our troops, as well as their 
families, and, of course, this concerns me. And I don't need to 
list all the potential flash points in the world we could be 
called on to deal with. But as you know from recent news 
accounts, the brewing crisis in the Andean region--Colombia, 
Venezuela, Ecuador--provides a rather clear example. Because of 
our involvement in Iraq, we are accepting more risk than we 
should then we won't be able to do those risks.
    And I am afraid we are also shortchanging our commitment in 
Afghanistan, which is a primary front against those who 
attacked us, as we all know, on September 11.
    Admiral Fallon, I understand you are conducting a review of 
military operations in Afghanistan and hope that, based on that 
review, you can reassure us. And I am being pessimistic when I 
say that we face potential failure in Afghanistan if we cannot 
reallocate some resources to that front--to that war.
    We should also expect our North Atlantic Treaty 
Organization (NATO) allies to step up and do more. That is a 
disappointment. But we should also take the lead in 
demonstrating an additional commitment.
    These are serious issues facing our country, and it will 
make the decisions made about Iraq during the spring and the 
summer particularly important, and we cannot address our level 
of risk or rebuild our Army to reinforce our effort in 
Afghanistan if we keep 15 brigades in Iraq. Iraq must be viewed 
in this context and not taken in isolation.
    And, Admiral Fallon, I saw in your written statement the 
recommendation to the President regarding the pace and scope of 
redeployments from Iraq would include the recommendations from 
you and others in the chain of command. I hope these inputs 
will include the context of strategic risk and the strain on 
the Army and our needs in that other country of Afghanistan.
    Now, Admiral Olson, let me say a word about Special 
Operations, if I may.
    The demand for Special Operation Forces will continue to be 
high, even after we are able to redeploy many combat forces 
from Iraq. And I hope you will share with our committee your 
plans and challenges for keeping a highly trained, culturally 
attuned force over the long term.
    I look forward to hearing your thoughts on how we measure 
success in the overall campaign plan for the war on terror and 
how we track our progress over time in shaping the environment 
so that the number of terrorists who must be taken off the 
battlefield decreases over time and what lessons should we and 
others learn from your work with other partners in the 
interagency efforts, which all of us on this committee have a 
great deal of concern about.
    And a special thanks to each one of you for your 
commitment, your expertise, your hard work, your wisdom and 
your judgment. We are blessed in this country to have people 
like you in such responsible positions, and we thank you for 
being with us and sharing your thoughts and recommendations 
with us.
    So with that, Admiral Fallon.
    Oh, excuse me. Duncan Hunter, then Admiral Fallon.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Thank you, Mr. Chairman.
    Thanks for holding this hearing. What a critical hearing 
for us to hold today, and I really appreciate you teeing this 
one up for us here.
    And, Admiral Fallon, Admiral Olson, thank you for your 
service.
    And let me go over just a couple of things that I think are 
important for us to know and to work on.
    First, in the Iraqi theater, we are seeing lots of 
successes. The last figures I saw were 131 Iraqi battalions 
trained and equipped and, obviously, operating with varying 
levels of effectiveness.
    But my question was this: We had great success in rotating 
in--and I think we all agree that the key to a successful 
transition or handoff of the security burden in Iraq is going 
to be a function of one thing: reliable Iraqi military. That 
is, an Iraqi military that can move in, fill in, take the 
handoff from us and hold. Show up when they are supposed to, be 
effective in what they do and be able to provide the security 
shield for that country as the political process matures.
    So question here: We had a rotational policy here in 
Baghdad. We were rotating in Iraqi brigades. They were taking 
place--they were moving out, others were coming in. I thought 
that that gave us--in the Baghdad area--I thought that that had 
a salutary effect on the Iraqi forces overall because it made 
them play what you would call ``away games.'' That is, a 
brigade that would have to stand up, saddle up, move out from 
their home area, where they may have had a certain comfort 
level and they may or may not have been involved in substantial 
fighting, move into another area, move into a battle zone, 
deploy and operate and then rotate back. And I thought that a 
professional army should manifest that ability, the ability to 
saddle up, move out, undertake a mission, complete the mission, 
and then rotate out of the area of operation (AO).
    I understand they are not doing that anymore, that we are 
going to have a permanent force there in Baghdad.
    But my question to you and one thing I would like you to 
comment you on, as we go down the line here, Admiral Fallon, is 
whether we have in place--or working with the Iraqi armed 
forces--a plan that will allow all of their battalions to get 
into the fight. That is, even the battalions that are in benign 
areas of Iraq, where you don't have any activity taking place. 
The one way to make sure that those battalions are reliable and 
will fight when called on is to operate them, is to give them 
missions, move them out, have them undertake those missions, be 
able to examine them, rate them, figure out what their 
deficiencies are with respect to personnel and equipment, fix 
them, and then you know you have got somebody who will come 
when called.
    And so my question--I would like you to comment at some 
point on whether we have a plan to rotate all the Iraqi armed 
forces into at least enough operations that they will be able 
to figure out whether they in fact are going to be reliable 
when the U.S. leaves.
    Another important issue, I think, for this committee and 
for the defense structure in general is this: As you talk to 
the Guard guys especially--but a lot of our active-duty leaders 
too--we move units over to the theater, they often taken on new 
equipment in theater, sometimes they come with new equipment--
especially the Guard guys--and they unhorse that equipment 
before they leave, a lot of it stays behind.
    We have also had evolutions of certain equipment, like the 
up-armored vehicles, where we had at one time, for example, we 
had basically nonprotected vehicles going in with slight 
protection, and we put on thicker armor on the Humvees, and we 
came with Marine Armor Kits (MAK) for the Marines, for example, 
and then we went to up-armored Humvees, and, finally, we are 
going now to more Mine Resistant Ambush Protected vehicles 
(MRAPs) and more use of heavy vehicles, like armored trucks 
because they have got a much more protective capability with 
our troops.
    But the question is, with all the equipment that we have 
purchased, especially in these supplementals, going into the 
war-fighting theater, what I am worried about in the back of my 
mind is that we have got like places at al Taqqadum, where we 
discovered 1,800 MAK-kitted Humvees parked, that we have got a 
lot of equipment the U.S. taxpayers paid for, which could be 
used now at least to full up the Guard units that are back here 
that came back bare. And in the back of your mind, you are 
always worried that at some point we are going to be selling 
those off in a foreign military sales to somebody for 10 cents 
on the dollar. We are keeping big traunches of stuff behind 
that we actually could bring back and full up some of the units 
that are here in Kona.
    So whether or not we have got a good inventory on what we 
have, do we know what we have got, I think, is an important 
issue for the active and Reserve and Guard forces.
    With respect to Afghanistan, you know, we just gave this 
massive contract on the new tanker for the aircraft--a $35 
billion-plus contract to a European firm--which will do, at 
least according to their own statistics, more than half the 
work--more than half the jobs--looks like 100,000 jobs going 
over to Europe--and yet we are sending 3,200 Marines into Iraq, 
partly to prepare for what we think may be a spring offensive 
in that southern area. And we couldn't extract an average of 
100 soldiers apiece--maybe a few more than that--maybe 115 
soldiers apiece--out of the 26 allies. And so, as a result, we 
are going to send in and are deploying 3,200 Marines to 
undertake that mission.
    Now, I think we have got an interest in training our 
European allies to fight and to be able to operate and, Admiral 
Olson, especially to be to operate with effective Special 
Forces.
    And so I think, Admiral, it would be good if you could 
explain--Admiral Fallon, if you could talk to us today a little 
bit about how we are going to ensure in the long term that we 
have a coherent leadership structure in Iraq--understanding 
this division between Operation Enduring Freedom (OEF) and 
Iraqi Armed Forces (IAF)--that we have a coherent leadership 
structure in Afghanistan.
    But beyond that, that we employ and motivate the European 
allies who are involved in that theater to take on the fight. 
And how we get some, like the Germans, who, I understand, will 
not leave garrison, to get into the fight, and that we don't 
end up with what, I think, Secretary Gates described as a 
situation in which some folks go on the battlefield and some 
folks don't--an unhealthy relationship to have with our 
European allies, who at some point might have to fight in a big 
war alongside of the United States.
    So just a couple of questions.
    Mr. Chairman, I would like unanimous consent to put my 
written statement into the record, if I could.
    The Chairman. Thank you, Mr. Hunter.
    Mr. Hunter. Thank you.
    And thank you very much for being with us, gentlemen.
    Mr. Chairman, I look forward to the hearing.
    The Chairman. Without objection, your statement is put in 
the record.
    [The information referred to was not available at the time 
of printing.]
    The Chairman. And now, Admiral Fallon, we will ask for your 
testimony, to be followed by Admiral Olson.
    Thank you.
    Thank you, both, again.

   STATEMENT OF ADM. WILLIAM J. FALLON, USN, COMMANDER, U.S. 
                        CENTRAL COMMAND

    Admiral Fallon. Thanks.
    Chairman, Mr. Hunter, distinguished members of the panel, 
it is a great pleasure and honor to be back with you again this 
morning and to be sitting alongside my colleague, Admiral 
Olson. The Navy has kind of taken over Tampa temporarily, but 
there is a lot of water down there so we feel right at home, 
and we have been warmly welcomed in the neighborhood.
    I would like to submit my written testimony for the record, 
if you would be so kind.
    And without wasting a lot of your time, because I know you 
want to ask questions, I will tell you that we have many 
challenges, certainly in the Central Command region. As I look 
through the 29 countries there, there isn't a day that goes by 
that there aren't several issues, frictions, conflicts or 
instabilities that are in front of my and my staff's attention. 
We are working all of these to the best of our ability.
    I can tell you that the number-one issue is still Iraq. We 
are making substantial progress, certainly in security. Be 
happy to field your questions in that regard, but without a 
doubt, the performance of our men and women out there has been 
just spectacular.
    Speaking of people, I would like to highlight for you--and 
I know this committee certainly knows better than about anyone 
else in this city or the country--how well served we are by our 
men and women in uniform. They are doing just a fantastic job. 
If you think of the amount of time, we are six years now 
working in Iraq. Many of these people have been back several 
times. The good news is they are really, really good. They know 
the territory. It is astounding how readily they fit back in 
and adapt and can give us really good advice in dealing with 
people.
    The other side of the coin, of course, is that these 
repeated deployments are certainly a strain on them and their 
families. But they are performing just in a spectacular manner, 
whether it is Iraq, Afghanistan or the many other places in the 
theater, and I know you join me in appreciation for their good 
work.
    If I could move to Afghanistan, we are making progress. I 
don't think there is going to be a spring offensive by the 
Taliban. The spring offensive is going to be by our security 
people as they move out and take advantage of the situation 
that they helped to create through their good works here in the 
fall of last year.
    There has been a heavy winter in Afghanistan, a lot of snow 
in some areas. That has caused some personal problems for many 
people. A lot of--not a lot--but several hundred people, we 
understand, were lost, particularly in the west, but it has 
also served to keep activity levels down. The snow is starting 
to melt now, and as our Marine infusion begins to arrive in the 
country, it puts us in a position in the south to give General 
McNeil, the maneuver unit that he has been asking for. And I 
couldn't imagine one that is better equipped with all the 
enablers to give him the shot in the arm that he needs to 
really go after the security, particularly in the south, which 
is where he intends to begin employing those forces.
    The other piece of this is just as important, if not more 
so, in my mind; that is, a battalion of Marines dedicated to 
training. To bring in the Afghan army, which is really coming 
along in a manner that would please you, those of you who have 
seen them. And those who have not, I would encourage you to go 
take a look at them. I am sure you will be as impressed as I am 
with their leadership and the capabilities and, particularly, 
their willingness and strong desire to get out there and take 
care of business on their own, and that is going to be where we 
want them to go. So the Marines ought to be very helpful in 
working with the Afghan security forces this spring.
    In Pakistan, across the border, it has been a troubled 
country with a series of stability issues for the duration of 
its existence. There is a political process that is in progress 
now, as you know, and that is good, and it has been generally a 
lot more peaceful than some might have thought. We are 
anxiously watching to see how they deal with this situation 
because we cannot, from my view, separate activities in 
Afghanistan from Pakistan. The reality of life is that the 
Pashtun tribal overlay covers both countries and we just have 
to deal with the whole picture. We have been getting a lot of 
help in Pakistan. I would be happy to field your questions in 
that regard.
    There are some other signs of goodness in the region.
    The recent peace agreement in Kenya that was brokered by 
Kofi Annan is a really good sign, and we are grateful for his 
intervention and for the leadership--their decision to actually 
try to fix things in another troubled area.
    Regional stability is the last point I would make. It is a 
priority with me. It is not just these individual countries, 
but trying to create the conditions throughout the Gulf area, 
the Horn of Africa, Central Asia so that people will work 
together. We are there encouraging them, trying by the example 
of our people to show them how things could be and should be 
better and to help them in every way we can.
    With that, I would like to thank you for the opportunity to 
be here, and I will look forward to receiving your questions 
after Admiral Olson.
    Thanks very much, Chairman.
    [The prepared statement of Admiral Fallon can be found in 
the Appendix on page 55.]
    The Chairman. Admiral Fallon, thank you very much.
    Admiral Olson.

 STATEMENT OF ADM. ERIC T. OLSON, USN, COMMANDER, U.S. SPECIAL 
                       OPERATIONS COMMAND

    Admiral Olson. Morning, Mr. Chairman, Mr. Hunter, 
distinguished members, and I, too, thank you for the 
opportunity to be here with you this morning to report on the 
Special Operations Command and the Special Operations Forces.
    I am honored to represent the 54,000 active and Reserve 
soldiers, sailors, airmen, Marines, civilians who are assigned 
to Special Operations Forces, and I am pleased to be here this 
morning with my friend and colleague, Admiral Fallon, with whom 
our Special Operations Forces are now so heavily engaged.
    And with your permission, sir, I will submit my written 
statement for the record and limit my opening remarks.
    The strong and steady interest of the Congress, and 
particularly this committee, has helped Special Operations 
Forces achieve a global capability and a global effectiveness 
since we were created by legislation, now, almost 21 years ago. 
We have proven ourselves in many well-known and lesser-known 
operations around the world throughout that time, and we have 
been a strong and steady presence with friends and allies. The 
command's strength is clearly in its people, enabled by unique 
authorities and a dedicated budget.
    As you well know, we are charged by legislation to perform 
many specific activities, including counterterrorism; 
counterproliferation of weapons of mass destruction; direct 
action; unconventional warfare; foreign internal defense, which 
is training our friends and allies; a special reconnaissance; 
psychological operations; information operations. And I am 
tasked, as well, by the President to serve as the lead 
combatant commander for synchronizing Department of Defense 
planning in the global campaign against terrorism.
    In aggregate, these doctrinal terms define a complex set of 
tasks that are best accomplished by specially selected, 
trained, and equipped force with special skills, discipline, 
courage and wisdom. It is a force that must operate with equal 
confidence and equal capability across a spectrum of conflict, 
from precrisis activities through intense combat into 
stabilization and reconstruction activities, and such a force 
must be carefully managed in order to optimize its readiness.
    When deployed outside the United States, Special Operations 
Forces are almost always in support of geographic combatant 
commanders. They are present in 58 countries today. About 80 
percent of our force deployed outside the United States today, 
though, is under Admiral Fallon's combatant command deployed in 
the Central Command area of responsibility focused on a balance 
of direct and indirect actions, working to kill and capture 
terrorists and those who wish to do us harm as they contribute 
to local stability.
    Operational commanders have learned over the last several 
years that no other force can accomplish such a broad scope of 
missions in such diverse operational environments as the 
Special Operations Forces. And so global demand for such a 
force does exceed supply, and I anticipate no decrease in 
demand, even as other forces do begin to draw down, especially 
from Iraq.
    In fact, I expect an increasing demand for Special 
Operations Forces as the local environments transition from 
environments of large force occupation and combat to smaller 
footprints of train-and-assist activities, which are a 
specialization of Special Operations Forces. And this is 
especially considering the continuing deficit of Special 
Operations Forces in the regions of the other geographic 
combatant commanders of the world.
    To answer this is a result of program decisions made in the 
last few years, we are expanding as fast as we can reasonably 
absorb the growth. In fact, the Program Objective Memorandum 
2008 (POM-08) cycle has programmed for us an increase of about 
13,000 forces that we are continuing to work into our force now 
and in the next few years.
    In the long term, I estimate that a three to five percent 
growth rate in military manpower across Special Operations 
Forces is about right. And if we need to expand our organic 
enablers, like cordon-and-search forces and their field control 
and quick-reaction forces and interrogators and linguists, 
aviation capability and the like, then we will need to expand 
it at a greater rate.
    Most of the mobility platforms and much of the equipment 
used by Special Operations are initially procured by the 
services and then modified for their Special Operations 
peculiar missions by the budget provided to me, and, therefore, 
most of U.S. Special Operations Command's acquisition programs 
are dependent upon service budgets and decisions.
    Recapitalizing our fixed-wing transport fleet and acquiring 
additional intelligence, surveillance and reconnaissance 
systems, not just platforms, are our most critical needs. And 
for these and other items that deliver Special Operations 
peculiar capabilities, speed of process is essential, and I am 
committed this year to exploring my authorities for making our 
acquisition systems more responsive.
    In any case, I am convinced that U.S. SOCOM will be 
required to at least sustain--and likely grow--its levels of 
both operational effort and funding for the foreseeable future.
    I remain humbled to command such a capable and versatile 
force at this most important time, and I remain in awe of the 
dedication and courage demonstrated by our great men and women 
every day.
    I thank this committee for its continued support of Special 
Operations, and I look forward to your questions.
    Thank you, sir.
    [The prepared statement of Admiral Olson can be found in 
the Appendix on page 89.]
    The Chairman. Admiral, thank you.
    Without objection, each of the statements of the witnesses 
will be placed into the record.
    Admiral Fallon, please define for us what victory means in 
the war in Iraq? In that war, we can't measure progress by 
territory, as we were able to do in the Second World War by 
islands taken in the Southwest Pacific or territory taken in 
France and Germany and Europe.
    So how do we measure--and it is not just security either. 
So what is our goal? How do we measure, A, progress, and how do 
we measure victory that America--people at home ask about?
    Admiral.
    Admiral Fallon. Thank you, Chairman.
    No easy answer. It is certainly not as simple--if that is 
the right word--as watching the front move on a map as it 
covers geography. I can tell you what I look at and how I 
measure success, and it is much more than just the security 
area.
    Of course, I look at the level of violence, the level of 
activity day to day in the country, and I am really happy to 
tell you that those indices are all continuing to move in a 
very, very positive direction.
    When I was here before you last year, the number of violent 
incidents a day in the country of Iraq was averaging over 150. 
I can tell you that today those numbers are down in the low 
30's a day. There are places in the country, such as Anbar, 
which was exceedingly violent last year, in which there are 
many days in the past couple of months where there have been no 
reported incidents of violence.
    That is a good indicator for me to start, and then beyond 
that, I look at other things: how the country is coming, how it 
is developing, how fast we can turn over security to the Iraqi 
army and the other Iraqi security forces. I watch with interest 
the south, where most of those provinces have been--the 
vernacular is PIC'd or under provincial Iraqi control, where 
the Iraqis themselves are responsible for security and watching 
with interest how they do that.
    An interesting measure for me was just these past couple 
weeks with the annual Arbaeen pilgrimage, in which the estimate 
was about 8,000 pilgrims were on the roads moving to the shrine 
cities in the south. The Iraqis drew up the plan, moved units 
around. To get to Chairman Hunter's--one of his questions--they 
did move people from other areas to take care of security 
affairs. They executed the plan. We watched, provided very, 
very little in the way of support and they pulled it off with 
the smallest number of casualties. Regrettably, there were 
some. Twenty-some people were killed in a bombing attack. But 
compared to prior years, a remarkable difference.
    I look at economic activity. Things are beginning to change 
in a dramatic way. Just a couple of months ago, back in 
December, the first private investment in the country--about $3 
billion--took over three of the old state-run industries, a mix 
of Iraqi and outside folks, to get those things up and running.
    So to sum up, I don't have any simple answers. What I am 
looking for is not just the level of violence going down, which 
is pretty easy for us to tell; not just the level of casualties 
on our side, which are continuing to fall, thank God; but to 
see the amount of activity on the Iraqi side; to see their 
governance taking over and making this place a country that is 
viable.
    I would be happy, if you wanted to for the record, come 
back and give you a number of things that I look at every day 
to try to give me a sense of where we are.
    The Chairman. That would be very helpful to us if you would 
do that, Admiral.
    Admiral Fallon. Yes, sir.
    The Chairman. Admiral Olson, in the same vein, how would 
you define victory on the war against al Qaeda, and how do you 
measure progress that we have been killing them for some seven 
years and the war doesn't end and people seem to still support 
them in some areas? How do we measure progress? What is our 
goal? When do we say--when do we run up the victory flag?
    Admiral Olson. Mr. Chairman, I am not convinced there is 
ever going to be a day when we run up the victory flag. This is 
a different kind of an adversary, much more elusive, living and 
fighting among the people, and I don't anticipate that it will 
lead to the signing of a document aboard the USS Missouri.
    Our success against al Qaeda is manifested mostly in the 
growth of Iraqi and Afghan security forces, trained and 
equipped to be responsive to local and regional needs within 
those nations. It is a decrease in violent acts, which is a 
manifestation of a decrease in those who are planning every day 
to conduct those violent acts against us. It is a dismantling 
of the infrastructure, of the funding lines and the training 
facilities that contribute to that and interruption of the flow 
of weapons and materials that enable them to conduct those acts 
against us.
    As does Admiral Fallon, we have a series of metrics that we 
track. I am happy to provide those separately to you for the 
record. But I agree with Admiral Fallon completely that----
    The Chairman. Yes. Yes, if you would do that.
    Admiral Olson. Yes, sir.
    [The information referred to is classified.]
    Admiral Olson. I agree with Admiral Fallon completely that, 
ultimately, the measure of success is a secure and sovereign 
nation in a stable region with self-determination and a 
functioning government enabled by a growing economy. And when 
we reach that point, then it will lead, certainly, to a 
withdrawal of our forces there. But, again, I will be surprised 
if it does lead to the raising of a victory flag. I think that 
we will creep into success.
    The Chairman. Thank you.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    And, first, Admiral Olson, I just wanted to take a chance 
to publicly thank Special Operations, because I had never had a 
chance to do it, for what you folks did a couple of years ago. 
We had a congressional delegation in Fallujah during the time 
when Fallujah was pretty hot, and we asked General Mattis what 
he needed for his Marine command there, and he said he needed 
Advanced Combat Optical Gunsights (ACOGs), that great, very 
effective riflescope that they are using on the M4s. He said he 
had Marines actually coming out of Fallujah, putting on their 
new ACOGs, going back into the fight and being very effective, 
but he needed them.
    Well, when we got back with that congressional delegation, 
we called up--I forget who I talked to in your command, but we 
gave you guys a phone call on the way back, and the next 
morning--it was 7:30 in the morning--we had one of your fellows 
come in with a poncho, and he unwrapped it in the office, and 
he had a ton of ACOGs and other stuff, and he said, ``We will 
give you whatever we got.'' And you guys pulled, I think, 
several hundred of them off your shelves because you had some 
extras, and you got them over to the Marines.
    That prompted an outcry of protest from the acquisition 
bureaucracy that claimed that those were your ACOGs, by God, 
and that they should be back on the shelf someplace in Florida. 
But I wanted to thank you for, what I saw, was the fastest 
interservice equipment transfer I have ever seen. And I know 
they were effectively used.
    So one great aspect of your service is you guys move quick, 
you have got lots of flexibility, and it looks to me like you 
support the other services very effectively.
    Admiral Fallon, let me go back to this flipped jurisdiction 
of International Security Assistance Force (ISAF) and the 
Operation Enduring Freedom (OEF) forces in Afghanistan and kind 
of try to get it right.
    I know we have got a total of about 54,000 total forces, 
U.S. and allied, in country in Afghanistan. Roughly half of 
those are American. Is that right?
    Admiral Fallon. Yes, sir.
    Mr. Hunter. About half of them are American, and about how 
many of them are attached to the ISAF mission?
    Admiral Fallon. About half of those.
    Mr. Hunter. And about half to the OEF mission of our 
people? It is about 50-50?
    Admiral Fallon. It is close.
    Mr. Hunter. Okay. I thought it was a little bit more for 
ISAF, but, anyway, pretty close to a split.
    When you are putting together your military missions for 
ISAF, you are constructing the missions, who constructs the 
missions?
    Admiral Fallon. If they are ISAF missions, General McNeil 
has got the responsibility for them. But the reality is that 
this is not an issue, in my mind. When I got in this job last 
year, there was a lot of hubbub about this, and a couple of 
steps that I took.
    One was to go back and look at the authorities that had 
been issued from CENTCOM relating to all of the command's 
subordinate commands. We wrote those, streamlined them, cleaned 
them up and reissued that operational guidance. I then went to 
NATO to ask the Secretary General and the chairman of the 
military committee what their beef was, and most of it was 
historical. Since then--since last fall--we haven't had an 
issue.
    The reality is that, when missions are planned, they have 
to be coordinated pretty very well between these forces. There 
are some U.S.-only forces that operate in close conjunction 
with the ISAF forces. And the key thing is the training and 
equipping of the Afghan security forces that are a part of 
these combined forces that are used pretty much all over the 
country. We are in charge of that. We help them set them up and 
work closely with ISAF. So it is very well coordinated.
    Mr. Hunter. Okay. Well, okay. Well, I am just trying to 
understand the chain of command, if you will, and the division 
responsibilities. In Iraq, for example, you have got General 
Petraeus commands all coalition forces; General Odierno, the 
U.S. forces. Is General O'Neil--he commands the OEF forces in 
Iraq?
    Admiral Fallon. General McNeil has the NATO forces. He is 
the ISAF commander.
    Mr. Hunter. But does he also have any command of the OEF 
forces?
    Admiral Fallon. No, sir.
    Mr. Hunter. Who is the OEF commander in----
    Admiral Fallon. I have that command. I have that 
responsibility.
    The confusion may be that there are U.S. forces--General 
Rodriguez, who is the commander of the 82nd in his U.S. hat, is 
also the NATO commander of Regional Command East (RC East). He 
works for General McNeil in the tactical execution--operational 
execution of his duties. He also works for me in the 
responsibility that I have for the care and well being of all 
U.S. men and women in uniform in that region.
    Mr. Hunter. Okay. So if you are putting together a mission, 
you have got the various--in the ISAF mission you have got the 
various European participants all with their separate varying 
policies. For example, I understand it--and tell me if I am 
wrong--that the Germans do not involve themselves in what you 
would call ``kinetic missions.'' They stay in garrison, they do 
some nation-building jobs, but they don't involve themselves in 
the military operation.
    So if General O'Neil is putting together a military 
operation, how does he build that operation? He brings in the 
various countries and asks them what they would like to do or 
what they are able to do as a result of their national policy?
    Admiral Fallon. No, sir. First, to the key point, it is 
General McNeil, and he----
    Mr. Hunter. I am sorry. McNeil.
    Admiral Fallon [continuing]. He is the guy that has to deal 
with this, not me. He has got responsibility for all the NATO 
forces. The way he has the country organized in regions, and, 
frankly, most of the kinetic activity is going on in the east, 
where it is all U.S. forces so far with a few exceptions. We 
have got some Polish units out there for us. In the south, 
where it is some U.S. but mostly European NATO.
    General McNeil, through his regional commanders, puts 
together his operations, and they are executed down at the 
regional-command level. He is the guy, unfortunately, from my 
perspective, that has to deal with all these caveats, and there 
are many of them, and it makes life very difficult, very 
challenging for him, but he does it and figures out how to do 
it.
    Mr. Hunter. Okay. Last question.
    In your leadership role, is it your responsibility to talk 
to the military commanders of the various European components 
of the ISAF command to bring them into the fight, so to speak? 
If you have nations that you think are not participating in a 
robust way or in a way that really helps the operation and you 
would like to adjust that, do you communicate with them, or is 
that strictly a matter of their national policy and it flows 
down from their leadership and basically you and your 
commanders and General McNeil are left to basically accept the 
restrictions and the caveats as they arrive with the foreign 
troops?
    Admiral Fallon. No, sir. I am not in the chain of command. 
It goes from General McNeil back through German General Ramms 
in Brunssum headquarters--that is the NATO operational 
headquarters--back to General John Craddock, U.S. four-star, 
who has all the NATO forces, and that is how they deal with 
those individual challenges. So John Craddock is the man to ask 
that question of.
    Mr. Hunter. Okay. I guess I lied. I guess last, last 
question.
    Do you think we should be getting more and we should be 
trying to get more in terms of support from the allies?
    Admiral Fallon. Well, we would certainly like to have more 
robust support and--no secret--less restrictions, less caveats 
so that people can do the job that they have, by word, signed 
up for.
    Mr. Hunter. Okay.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Mr. Smith from Washington.
    Mr. Smith. Thank you, Mr. Chairman.
    And thank you, gentlemen.
    First of all, I want to thank Admiral Olson. He does a 
great deal of work with the subcommittee that I chair on 
terrorism. Both you and all of the folks at SOCOM have been 
just terrific to our committee. You have kept us very informed 
of the issues. You have been here, you have met with us. It has 
been a very open relationship. And with everything else you 
have got to do, I really appreciate that working relationship 
and your leadership down at SOCOM, particularly your emphasis 
on the counterinsurgency and indirect-action issues that you 
are really beefing up there, which I appreciate. I enjoy that 
working relationship a great deal.
    Admiral Fallon, thank you very much for your service as 
well in a very, very difficult part of the world.
    I wanted to ask some questions about Afghanistan and, 
specifically, sort of where we are at in the struggle. I think 
there is some concern from the last couple of years that we 
have started to lose ground in some areas, and the way I want 
to sort of focus that is, if the issue is hearts and minds sort 
of winning over territory, we seem to be losing some areas, in 
eastern Afghanistan and in southern. And by ``losing areas,'' I 
mean the local population basically is siding more with the 
Taliban and the insurgents than with us. And it is a very 
difficult situation. You know, we have to target the 
insurgents, we don't always know who they are, there is 
accusations of civilian casualties, even if it is not the case.
    It seems to have, in certain areas, have turned the 
population against us, from what I can read and from the 
briefings I have received. I wonder if you could give me some 
idea where those areas are, how many there are, and what we are 
doing to try to reverse that as we try to balance the need to 
hit the insurgents as hard as possible while at the same time 
not alienating the local population? How do you see that 
struggle going at this point?
    Admiral Fallon. Mr. Smith, you have highlighted the general 
challenge, and that is, it is complex.
    First, to the business of who is in charge, there are no 
provinces and no districts that are ``in the hands of the 
Taliban.'' We have maintained the initiative throughout the 
country. We, that is, U.S., ISAF, the Afghan security forces. 
Nonetheless, there are lots of challenges, and most of them are 
local issues.
    This is a very checkered country with lots of tribal 
affinities. It is an isolated country. As you are aware, there 
is only one major road in the entire nation, and it is this 
ring road, which is not quite completely paved yet, but we are 
working on it. And so there is certainly a lot of tension and 
ebb and flow.
    What we are trying to do is to work with the Afghan 
security forces to put in place a framework of stability so 
that the business of moving forward in governance and in 
economic development and nation building can take place. There 
are a lot of actors on the playing field, and that is a 
challenge for us to deal with, not just in a security area but 
in the redevelopment and assistance area.
    My sense is that we are working hard and we are gaining 
ground. There certainly was an uptick in kinetic activity last 
year, as there was the previous year. The relative increase 
last year was not nearly as great as it was forecast, and our 
intention this year is to get that and to keep that from 
growing in any appreciable way.
    We are providing time and space for the Afghan governance 
part of this to be effective in the country.
    Mr. Smith. And how confident are you in our 
counterinsurgency ability because that seems to be--this is 
not, you know, a big, traditional, conventional fight----
    Admiral Fallon. Correct.
    Mr. Smith [continuing]. This is sort of Admiral Olson's 
territory, if you will, in terms of it is as important to make 
sure that you are working with the local population in a 
diplomatic way as it is to make sure that you have got the 
military hardware necessary to kill the bad guys. And that is a 
tough thing to do, particularly following up on what Mr. Hunter 
talked about, in terms of all the different pieces.
    Do we have the people with the skill sets necessary to do 
that job?
    Admiral Fallon. Yes. Short answer, yes. We have got a lot 
of experience from Iraq, and particularly from Afghanistan, and 
our people are doing a terrific job in that regard.
    Mr. Smith. Okay. Thank you.
    I have many more questions, but my time is almost out so I 
will probably submit some for the record, and I appreciate both 
you gentlemen being here this morning.
    Thank you.
    The Chairman. A quick question, Admiral Fallon, before I 
call on Mr. McHugh.
    We all know the unfortunate experience that Great Britain 
had with the entire Middle East 1914, 1922. Do you think we 
understand the culture any better than they did at that time?
    Admiral Fallon. We are learning. I am not going to sit here 
and tell you that we have got it all figured out. I know that 
our people have a much better appreciation for this than they 
did a few years ago. I have watched them work down at the troop 
level in Afghanistan. I have been amazed at how quickly our 
people pick it up and how good they have been at passing this 
down. I am not going to tell you that everybody gets it to the 
same extent. But I have been very impressed with the way that 
our people are operating.
    In several of the provinces, they are not leading with 
their weapons, they are leading with their brains, and they are 
engaging with people, and those that are doing that are really 
having terrific success.
    The Chairman. Admiral Olson, cultural awareness is a major 
part of what you do. Can I ask you the same question?
    Admiral Olson. Sir, we, too, are learning rapidly. With so 
much of our force now in Central Command (CENTCOM), it is a 
steeper learning curve for some than others. Some of our groups 
regionally oriented to other parts of the world are now working 
in Iraq and Afghanistan. We do have the advantage in force 
management of being able to rotate, primarily two of our 
Special Forces groups, in and out of Iraq and two of our 
Special Forces groups in and out of Afghanistan. And as they 
rotate in and out, we try to make sure that they go not only 
back to the same country but back to the same fire base so that 
they are working with the same people over and over and over 
again over time. So that knowledge and those cultural 
sensitivities are growing every day, but we, too, still have a 
long ways to go.
    The Chairman. Thank you.
    Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman.
    Gentlemen, welcome. Thank you, as always, for the great 
work that you and those terrific people you lead do on our 
behalf.
    Admiral Fallon, you talked a bit about, perhaps not how to 
precisely how to define victory, but what the factors are that 
lead us toward a better or more successful outcome. One of 
those components has to be the political reconciliation in 
Iraq.
    Recently there has been some movement made with regard to 
so-called benchmarks--a couple of steps forward, a step back. 
They had the provincial laws passed but then vetoed to have 
passed the de-Baathification law, so-called, that has some 
questionable components to it, an 2008 budget and such.
    How do you assess the political reconciliation and growth 
of the national government? I think there is probably more 
success at the provincial level, but in Baghdad, how are things 
going there?
    Admiral Fallon. They are learning, Mr. McHugh. Quite a 
steep learning curve, but they are picking it up.
    Nine, 10 months ago, I went out and met most of the senior 
Iraqi leaders, and I found them to be, my opinion, uneasy in 
their positions, certainly without a lot of experience. They 
are coming from narrow political or party or some other very 
distinctly inwardly focused orientation. Now they have got 
bigger responsibilities. They are growing into it.
    If I could give you one example: This recent passage of the 
three pieces of legislation--simultaneously the budget and the 
amnesty and the provincial council's business--they had 
struggled for a couple of months with these. Individually, just 
not getting there, everybody had a piece of the action, 
everybody wanted something, couldn't agree. And somehow the 
light went on, they came up with another idea: What if we 
bundle these things together? Maybe, collectively, there enough 
things that people could feel that there is enough goodness 
here to move it forward--it is a political process that I am 
sure you understand a lot better than I--and all of a sudden, 
in a half day's time, bingo, it is passed. Not by overwhelming 
numbers, but it got passed.
    Now there is another part of their process that has taken 
place. They have this presidency council. The way the 
legislation works, they get to review it. These are kind of the 
godfathers, if you would. They take a look and see what they 
like, don't like, and one of them, Hashemi decided he didn't 
like an aspect of the bill and kicked it back, and so now it is 
in for reconsideration in the Council of Representatives (COR). 
Meanwhile, the other the other two bills are proceeding at 
pace. I think that is pretty indicative of a maturing political 
process.
    So is it going to be lightning quick? You could look around 
here and see that some things take a while to get through your 
institution as well. They are making progress, and I am happy 
to see, not just the way they have been able to get some of 
these pieces across the board, but the way that they are 
consulting with one another, the way that they actually, behind 
the scenes, get down there and rub elbows and roll up their 
sleeves and get moving. So they are making progress.
    Mr. McHugh. Thank you, sir. When it comes to Congress, our 
message to the Iraqi parliament ought to be ``Do as we say, not 
as we do,'' I suspect, but I appreciate your assessment.
    Recently, Muqtada al-Sadr issued a continuation of the 
cease-fire. It is certainly in the early days the stand down of 
Jaysh al Mahdi (JAM) and the decreasing violence was a critical 
part. Is his word going to be able to hold that cease-fire, or 
what do you read there?
    Admiral Fallon. I don't know, to be very blunt with you, 
but I do know that any steps like that that generally send a 
message of moderation and to not answer the call to arms is 
helpful. It has got to be helpful. And I think we have 
benefited from that.
    There is clearly dissention within the ranks, from our view 
of what is going on Jaysh al Mahdi, but the results are 
speaking for themselves. There are many days now in which there 
is little to no violence in areas that we know have a 
significant JAM presence, and that is really good. What we are 
focused on and what General Petraeus is focused on right now is 
those special groups--those bad actors or criminal elements--
that just continue to wreak havoc.
    Mr. McHugh. Got a few seconds left so I will throw out an 
easy one.
    You want to give us your opinion on the so-called potential 
for a summer pause in the drawdown of U.S. forces? Take all the 
time you need.
    Admiral Fallon. Okay. Just to say that General Petraeus 
will come back to me within a matter of days with his 
recommendations on what he thinks in response to some questions 
I have sent him on various scenarios. We will be happy to 
consider that and pass it up the chain of command.
    Mr. McHugh. Thank you, Mr. Chairman.
    Thank you, gentlemen.
    The Chairman. Ms. Sanchez, please.
    Ms. Sanchez. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being before our committee 
today.
    You know, sometimes this job is a very frustrating one. I 
just had a colleague walk out very frustrated with some of the 
lack of answers that we are really getting out of this panel 
this morning. So I am going to try this again.
    This has to do with Afghanistan because I think many of us 
here are very, very concerned about what is going on in 
Afghanistan. And the study report that General Jones and 
Ambassador Pickering turned into us about February 1 of this 
year, it said, ``The year 2007 has been the deadliest for 
American and international troops in Afghanistan since the 
U.S.-led coalition forces invaded Afghanistan in 2001.''
    And it went on to say that the progress achieved after six 
years of international engagement was under serious threat and 
that the United States and the international community have 
tried to win the struggle in Afghanistan with too few military 
forces and insufficient economic aid. Congressional Research 
Service (CRS) estimates that we have spent about $127 billion 
in Afghanistan compared to almost $500 billion for Iraq.
    And when Chairman Mullen was before us on February 6, he 
pointed out that in Afghanistan we are seeing a growing 
insurgency, increasing violence, a burgeoning drug trade fueled 
by widespread poppy cultivation, and, in response, more U.S. 
forces will deploy to Afghanistan.
    So my question to you is, aside from the 3,200 Marines who 
are destined to Afghanistan in April, what is the status of 
additional U.S. forces being deployed to Afghanistan?
    Admiral Fallon. Those Marine forces that have been 
announced are the sum of the additional increase forces. There 
are certainly rotational forces going in, and behind the 
scenes, in the small print, some of these forces are actually 
larger this year than the forces that they are replacing.
    There has been for sometime an outstanding requirement from 
General McNeil to the NATO hierarchy to provide two maneuver 
brigades for his use in ISAF. We have not seen that to be 
forthcoming and so have recommended that we have a Marine Air 
Ground Task Force (MAGTAF) deploy, and I think that is going to 
be a substantial assistance to General McNeil.
    We have also a standing requirement for a couple of 
thousand personnel to do training in the OEF area. I am pleased 
that we are going to have a battalion. It is about half of the 
number that we have asked for. I think that is going to be 
substantially helpful to us. But that is the sum of the U.S. 
forces that are going to be additionally sent to Afghanistan.
    Ms. Sanchez. And given the small number of resources and 
personnel that we devoted to Afghanistan, are you surprised at 
the current state of insurgency, violence and drug trade that 
is occurring?
    Admiral Fallon. That is a very complex question, and I 
certainly am not going to dispute the fact that there are more 
incidents of violence, more improvised explosive devices (IEDs) 
and more casualties this year. But when I go back and look at 
the history of the U.S. engagement alone in Afghanistan from 
2001 to now, there was a big hump of activity until 2002 and 
then a time in which there was not as much engagement. That 
engagement has been substantially ramped up, and there is an 
awful lot of progress going on.
    So there is a lot of stuff that has happened, a lot of 
numbers that are certainly negative rather than positive, but 
as I look at my responsibility for the region, the total of 
activity in Afghanistan compared to Iraq, for example, they are 
just not in the same range of metrics.
    That said, we have set ourselves up for what, I think, is 
going to be substantial progress this year in Afghanistan, and 
most of that is going to be directed in the area that, I 
believe, is really the most appropriate way, and that is to 
have the Afghans picking up more and more responsibility for 
security and stability in that country, and that is where we 
are really focused.
    Ms. Sanchez. Admiral, what would be the ideal number of 
U.S. troops for mission in Afghanistan, and if we weren't in 
Iraq, would we be devoting the right resources to Afghanistan?
    Admiral Fallon. Well, the number of forces that have been 
requested through NATO, and two maneuver brigades, and I could 
put to good work another 1,500 or so trainers there. We have a 
lot of requirements and a lot of demands on our system. I think 
that we have done our best to balance those competing demands. 
I feel confident that, with the forces we have this year, we 
are going to make significant progress.
    Ms. Sanchez. And if we were not in Iraq? You wouldn't 
change what we are doing in Afghanistan?
    Admiral Fallon. As far as changing the way we are going 
about this and the way we are doing it?
    Ms. Sanchez. Number of troops, what we deploy, what we are 
doing?
    Admiral Fallon. The plan that we have is, I believe, the 
appropriate plan in Afghanistan. It would be nice to have more 
resources. Our commanders always want more resources. I have to 
deal with that, I have to do my best to adjudicate those 
demands, but as far as the strategy, what we are doing, how we 
are doing it, I think we are on the right track, and I think 
you are going to see some success this year.
    Ms. Sanchez. Thank you, Mr. Chairman.
    The Chairman. To clarify your answer to Ms. Sanchez, there 
will be 3,200 Marines going in since NATO is not coming forward 
with 3,500; is that correct?
    Admiral Fallon. Three thousand two hundred is about the 
right number, and that is split between maneuver force and then 
the folks that are headed in specifically for training.
    The Chairman. Well, that is my question. You said about a 
battalion-size Marine contingent is going to do training. Does 
that come out of the 3,200 hide or----
    Admiral Fallon. Yes, sir. A sum total of 3,200.
    The Chairman. Not in addition thereto?
    Admiral Fallon. No, sir. That is the sum total of all the 
U.S. troops that are going in.
    The Chairman. Thank you.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    Admiral Olson, you talk in your written statement about 
indirect warfare, about irregular warfare, and you make the 
statement that in a world characterized by protracted 
struggles, emerging irregular warfare doctrine calls for a 
suite of capabilities to prevail against those who threaten us.
    Just as most of us tend to think of success and warfare as 
that front moving across a map--like you all talked about 
earlier--most of us tend to think of warfare in more 
traditional terms: in tanks, in ships, in airplanes and so 
forth. And this suite of capabilities you talk about for 
irregular warfare is not something that most of us are used to 
thinking of when we think about our military.
    I think it would be helpful for us if you would take just a 
moment--because SOCOM has done more work in this area, more 
thought, more experience in this area than most of us. Take 
just a moment and from a national perspective--not a SOCOM 
perspective--from a national perspective, talk about why this 
suite of capabilities you mention is important. And I am 
especially interested in what obstacles you see to this country 
developing that suite of capabilities for irregular warfare.
    Admiral Olson. Thank you, Mr. Thornberry.
    ``Irregular warfare'' is a term that has emerged just in 
the last couple of years, and it has become an umbrella term 
that describes a number of diverse activities of direct and 
indirect nature. So many irregular warfare activities are 
conducted by handfuls of people in remote regions in face-to-
face activities, but manhunting and terrorist killing is also 
an irregular warfare activity. It has come to include 
counterinsurgency and counterterrorism and counterguerrilla 
warfare and train-and-assist missions, and stability and 
reconstruction.
    Many irregular warfare activities are activities in which 
the Department of Defense has the lead. Many irregular warfare 
activities would not be termed ``warfare'' but are related 
activities in which other agencies of government have the lead 
and Department of Defense is in support.
    It does require cultural attunement. It requires language 
skills. It requires sustained presence. At sort of the low-
density, low-technology region, it also requires the ability to 
sense what is occurring in very high-tech ways and be able to 
respond to that with violence when that is required.
    Special Operations does many things across that suite of 
military activities. So do the rest of the conventional forces. 
There are irregular warfare centers of excellence and irregular 
warfare units and commands that are being developed within the 
services in order to answer that need.
    And I think the obstacle--in specific answer to that, the 
obstacles are in defining roles and missions--who is going to 
do what, who is going to have the lead to do what--the 
prioritization in which these activities are going to occur and 
the regions in which they are going to occur--and then the 
access that is required to do this--access by host nations and 
access by our own other agencies of government in order to 
perform military activities in areas where we are not in 
conflict and may not expect to be in conflict soon, which 
requires policy decisions and permissions for military forces 
to conduct those kinds of activities.
    Mr. Thornberry. If you had to give the Nation a grade--A 
through F--on where we are with irregular warfare capabilities, 
what would you give us today?
    Admiral Olson. We are in the B to C range, I would give us, 
and growing. But much of this has to do with how we are 
organized and whether or not we are going to be able to apply 
discreet units in remote places, outside the normal 
organizational structure of our large conventional forces. And 
each of the services is working to do that with varying degrees 
of energy and success.
    Mr. Thornberry. I appreciate it.
    Admiral Fallon, just briefly, talking about how many 
soldiers are in Afghanistan, do you recall how many soldiers 
the Soviets had when they tried to occupy Afghanistan?
    Admiral Fallon. Number 100,000 comes to mind, but----
    Mr. Thornberry. I would say it is more like 3- to 400,000 
that they had trying to subdue that country unsuccessfully. It 
is a matter of bodies, or is it a matter of something else?
    Admiral Fallon. It is not a matter of bodies. If I could go 
back to--Congresswoman Sanchez has left--okay.
    The Chairman. Go ahead and answer the question.
    Admiral Fallon. We could use some more people. I don't 
believe we need large numbers. We could use some more folks to 
help with the training and to give General McNeil a little bit 
more of a boost. Last summer, last fall we chopped a battalion 
of U.S. troops to go in the south and help them out. They were 
very, very helpful to him, and he was able to do very well with 
them.
    A couple thousand more troops, I think, would pretty much 
give us all the flexibility we need to wrap this thing up 
pretty quickly, to expand stability in a way that would really 
be meaningful.
    But I don't think we ought to be contemplating large 
numbers of troops. I have seen in some places that, you know, 
we roll tens of thousands of troops out of Iraq and 
Afghanistan. I don't think it is appropriate at all. It is a 
very different situation. I think we have got the right idea, 
we have got the counterinsurgency strategy, and our emphasis is 
really on training the Afghans to pick this up and not in 
staggering the large numbers.
    Thank you, sir.
    Mr. Thornberry. Thanks, Chairman.
    The Chairman. So you would boost the numbers from 3,200 
roughly to 4,200?
    Admiral Fallon. We could use a couple thousand more--some 
troops actually do work down there.
    The Chairman. That would be 5,200.
    Admiral Fallon. Sorry, sir?
    The Chairman. That would be 5,200; is that correct? 2,000 
on top of 3,200----
    Admiral Fallon. If we are at about 3,200--I have lost the 
dot here on total numbers. We have got about 25,000 or so of 
our troops. A couple thousand more of anybody's that are 
willing to really get out there and do the things that need 
doing would help us immensely.
    The Chairman. Dr. Snyder, please.
    Dr. Snyder. Thank you, Mr. Chairman.
    I appreciate your clarification to Ms. Sanchez' question 
because I thought the first go-round was not as satisfactory as 
we would like. You know, we are here to help you, the country 
wants to help you, and I think an acknowledgment that----
    Admiral Fallon. There is no doubt we have given the 
priority to Iraq, and I think that is most appropriate given 
where we were, certainly from the time I have been in here. But 
we have not neglected Afghanistan, and we are taking a round 
turn on this, in Navy parlance, to get us where, I think, we 
need to be as quickly as we can.
    Dr. Snyder. And then the question for us is you have 
expressed a need for an additional 2,000 troops. Are the things 
that we need to be doing as a Congress reflecting the will of 
the American people to help you get to where you think you need 
to go, and that is the purpose of this hearing today.
    Admiral Fallon. Yes, sir.
    Dr. Snyder. I wanted to ask, Admiral--and I did not have 
your biography in the packet we had--and I saw you sitting 
there, I thought, this looks like a guy who was a tough guy in 
his young days and is still tough today. And so I have got your 
biography now, and that confirms that judgment, and I 
appreciate your service.
    I wanted to ask, kind of in following up on Mr. 
Thornberry's question, the issue in terms of the roles of the 
Special Ops Forces versus, what I call, the general-purpose 
forces. And in your statement you talk about the Foreign 
Internal Defense is something that you all participate in a 
lot.
    Now, is it not correct that, according to joint doctrine, 
that that is to be a role also of the general-purpose forces? 
And would you give me an update on where we are at with regard 
to is it a numbers issue, or do we still have some flux and 
debate going on about exactly who is going to do what with 
regard to general-purpose forces and Special Ops forces?
    Admiral Olson. Mr. Snyder, we are still having the debate 
about who is going to do precisely what and who is going to 
lead what with respect to development and application of forces 
globally in an irregular warfare kind of environment. Foreign 
Internal Defense is training and assisting alongside foreign 
counterparts. We get training from that; they get training from 
that. This is not about a one-way transfer of skills. It is 
about relationship building and mutual benefit, that kind of 
interaction, best conducted by forces that can go to the same 
place repeatedly over the course of a career.
    Dr. Snyder. Right. So when you earlier said--I think you 
said--in terms of the augmentation of your force, didn't you 
say three to four percent per year?
    Admiral Olson. Yes, sir.
    Dr. Snyder. I would think that until this debate is 
resolved--I mean, if you and General Casey and others and the 
secretary and maybe this debate is going to go on to the next 
Administration--say, no, all this is going to go to Special Ops 
Command, three to four percent may be terribly inadequate. Is 
that a fair statement?
    Admiral Olson. Sir, I actually said 3 to 5 percent, and 
that is on the order of--we are about a 50-, 55,000-person 
force depending on how we count the Reserves into it. And so 5 
percent growth on that is about 2,500 people a year. That is 
about what we are experiencing now through the Quadrennial 
Defense Review (QDR) and the POM-08 process, a growth of 
13,000-plus over 5 or 6 years.
    Dr. Snyder. But how does that relate--my time is going to 
run out. How does that relate to this debate going on? If it is 
resolved that the general-purpose forces have their hands full, 
they are not going to do any Foreign Internal Defense anymore, 
it is all going to be Special Ops, will that impact on the 
numbers that you all need to grow into?
    Admiral Olson. It would impact on the ultimate numbers that 
we would need to reach. It wouldn't directly impact the rate at 
which we can absorb the growth. We still have a limited ability 
to produce the quality of Special Forces soldiers, Navy SEALs, 
etcetera, who go out and conduct this activity. And it is 
something that doesn't scale up rapidly and massively very 
well. We have to work our way into it.
    Dr. Snyder. Now, is that--and my time is about up. Is that 
issue of ramping up--is that something that we ought--on this 
side of the table ought to be working on? Do we need additional 
training capacity for your command? Is that part of the issue? 
Recognizing that these are very sophisticated skill sets we are 
talking about and all kinds of factors. But is training 
capacity something that we should be worrying about so that you 
can ramp up faster----
    Admiral Olson. Sir, there is an element of training 
capacity in it, and that would be helpful, and we haven't 
worked all the numbers on that. We are working now to absorb 
the growth that we have been given with our current capacity. 
And, frankly, our capacity in Special Forces--soldiers, as an 
example--has grown from producing less than 300 a year a few 
years ago to producing more than 800 a year this year. So we 
have invested in that. Quality is up. Everything is up.
    Dr. Snyder. When do you anticipate this debate will come to 
an end, and is that going to be the result of--are we going to 
get some kind of formal study, or will there be an announcement 
in terms of the general-purpose forces versus Special Ops 
Forces in the Foreign Internal Defense?
    Admiral Olson. I don't think it is a formal study, but it 
will be a serious discussion about roles and missions, who is 
going to do what and whether or not Special Operations Forces 
can hand off some of the tasks they are currently performing to 
the rising capabilities of conventional forces.
    Dr. Snyder. Thank you for your service, both of you.
    Thank you.
    The Chairman. Thank you.
    The gentleman from North Carolina, Mr. Hayes.
    Mr. Hayes. Thank you, Mr. Chairman.
    And, gentlemen, thank you for being here and to your 
service and what all the wonderful people under you are doing 
every day.
    Couple of quick comments and then two questions for Admiral 
Olson.
    Based on the publication you and I were discussing, there 
is no word in the Arabic language for ``reconciliation.'' So as 
we look at, from our perspective, what is going on over there, 
we need to kind of factor that in.
    The other thing is theirs is a religion that allows for 
government. Ours is a government that allows for religion. And 
therein there is some very subtle but important distinctions we 
need to work with as we wrap up this military victory that you 
and your forces have won.
    Admiral Olson, with my allegiance and knowledge of Fort 
Bragg, I would like for you to speak about what additional 
authorities you need to assist you in executing the long war 
against terrorists.
    And then the second question, with a reduction in the SOCOM 
budget for this year compared with previous years and the size 
of your unfunded requirements list, I am concerned, and I know 
this committee wants to do everything that it can to ensure 
that you have what you need in the fight. What equipment or 
other shortfalls are there that we can help with, and what 
challenges are you encountering with sustaining such a high ops 
tempo?
    Admiral Olson. Thank you, Mr. Hayes.
    First, about the authorities, I would like to thank this 
committee for its continuation of our 1208 and now 1202 
authorities for another three years. That is an essential 
authority for us to fund the training and equipping of 
counterpart forces with which we are engaged around the world, 
including well away from Afghanistan and Iraq. That is a $25 
million authority without an appropriation, and it works well 
for us. We find that, once in, we can't get out, and so this is 
going to have to be an ever-increasing top-line amount of that 
authority as we approach $25 million for the first time this 
year.
    And I am a strong supporter of the 1206 authorities that 
also enable us to do important work around the authorities and 
the billing partner capacity act.
    I am exploring seriously my authorities with respect to the 
readiness of my force. The language that created United States 
Special Operations Command gives me head of agency acquisition 
authorities and a dedicated budget. I find myself beholding in 
many ways to service processes and certifications in order to 
exercise my authorities. I am convinced that I am operating 
comfortably within the middle of my authorities, not on the 
edge, and so I am working to explore those aggressively.
    The same thing goes with certain manpower and management 
authorities. My authority under the law now is to monitor the 
management of Special Operations Forces personnel, which gives 
me the opportunity to observe and report on how Special 
Operations Forces personnel--for whom I am accountable--are 
managed by the services. So I am exploring how to approach 
that, and, of course, much of what I seek ultimately will be 
within the authorities of the services and the Department to 
grant should they choose to, and some may drift into 
legislative requests.
    And the second piece was----
    Mr. Hayes. About the Unfunded Requirement (UFR) request.
    Admiral Olson. Yes, sir.
    Our budget request this year was below what it was the 
previous year. Fundamentally, we worked within the top-line 
guidance provided to us by the Office of the Secretary of 
Defense prior to submitting our 2009 budget. Then the things 
that we wanted to put within that top line we were unable to, 
those went to the top of our unfunded requirements list. Those 
are requirements by Special Operations Command submitted, 
approved, validated, vetted within the command but without room 
in our top-line budget guidance to squeeze them into the budget 
that we submitted to the Department.
    The budget we did submit was not challenged. It was 
approved and moved on. But, clearly, within our UFR request are 
those things that didn't make the priority cut, those things 
for which we saw opportunity for acceleration, and those things 
which became submitted and validated requirements in the 
several months between when we submitted our budget request and 
when we submitted the UFR list.
    And along the way, fiscal year 2008 was a surge year for us 
as a result of the QDR. We had military construction (MILCON) 
at almost twice the rate we had ever had it, we had growth of 
the force at a rate that we had never had before, we had 
completion of many of our equipment modification actions in 
2008, which is, in fact, what led to the lower top-line 
guidance for 2009.
    Mr. Hayes. Don't be guilty of not asking for enough.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank the gentleman.
    Mr. McIntyre of North Carolina.
    Mr. McIntyre. Thank you, Mr. Chairman.
    And thank you, Admiral Fallon and Admiral Olson, for your 
leadership. I greatly enjoyed my recent visit just a couple 
weeks ago down to Tampa to U.S. Special Operations Command and 
also to CENTCOM.
    And, Admiral Olson, thank you particularly for your 
hospitality. Enjoyed being with you also at Camp Lejeune for 
the groundbreaking of the new Marine Special Operations 
Command. We are quite excited about what that will mean on the 
other end of my district from Fort Bragg, where we have joint 
Special Operations Command that I share with Congressman Hayes.
    I wanted to ask you to follow up on Congressman Hayes' 
question. If you can tell us, in particular, what the wear and 
tear--and the being the tip of the spear that Special 
Operations are--what equipment and resources are experiencing 
the greatest wear and tear that you see as the greatest 
priority for replacement or for augmentation.
    Admiral Olson. Sir, in terms of sort of non-human 
platforms, our greatest wear and tear is being experienced by 
our aviation fleet. Our C-130's, upon which we depend for 
medium lift, are wearing out at an accelerated rate. We have a 
recapitalization program in place, and much of our budget 
request addresses that recapitalization. It is not coming as 
rapidly as I would like to see it, and we are going to see a 
degradation of that fleet because of center-wing box problems 
and other things with which this committee is familiar over the 
next few years.
    We have had to retire our MH-53 Pave Low helicopter 
program. That is at the end of its service life. We had 
intended that the V-22 would be able to replace that almost 
airframe for airframe, but delayed delivery of the V-22 is an 
issue for us. We have included in our request--in the 
supplemental--an acceleration of the V-22 program.
    The rest of our helicopter fleet--our Chinooks and our 
Black Hawks--are experiencing wear and tear at an accelerated 
rate, but we are pretty okay with those programs as we are 
currently programmed.
    And our intelligence, surveillance, and reconnaissance 
(ISR) fleet, which goes way beyond platforms into systems and 
people and training opportunities and all of that, has proven 
insufficient for the environment in which we are operating. We 
are growing into the knowledge that that has become an 
absolutely essential extension of our force.
    Thank you, sir.
    Mr. McIntyre. Thank you, sir.
    Admiral Fallon, if I could ask you--switching gears--on 
Turkey. We know there is a recent Turkish invasion--or 
incursion into Iraq in pursuit of the Partiya Karker Kurdistan 
(Kurdistan Worker's Party) (PKK). Can you tell us whether that 
was done with any U.S. assistance or with any U.S. cooperation 
and whether or not you felt like that successfully put down the 
PKK?
    Admiral Fallon. We provided indirect support to the Turkish 
military intelligence to help the incursion achieve some 
tactical success, it is my understanding. But I think the real 
key issue here is figuring out a way to have the Turks come to 
grips with the People's Congress of Kurdistan (KGK) and to not 
just try to eliminate them militarily. They certainly have 
instigated lots of trouble, and they have had a lot of 
casualties in Turkey, but the real solution here, to me, is 
that there is some kind of an accommodation reached with this 
group and with the Turks inside of Turkey to knock this off.
    Any kind of instability like that--kinetic activity--up 
there in Kurdistan is potentially very destabilizing and 
harmful to our operations in Iraq. And so we have really tried 
to come at this in a measured way. We certainly recognize the 
pain the Turks have felt from this outlaw and terrorist 
activities of this group, but we know that the long-term 
solution is some kind of an accommodation to scratch some of 
the itches of the KGK. And so we will give them the help that 
we can, but we are really strongly encouraging them to figure 
out a political solution here.
    Mr. McIntyre. Would it be your opinion, consistent with the 
other recommendations that this committee has heard from 
independent study group headed by General Jones and others, 
that we would not have a permanent American base in Northern 
Iraq?
    Admiral Fallon. I don't believe we are interested in 
permanent bases anywhere. What we are trying to do in Iraq is 
to provide enough stability and security to allow the 
government to grow, to allow the Iraqi security forces to take 
over responsibility and for us to continue to withdraw our 
combat forces. We want to be engaged with Iraq for the long 
term but not in the business of maintaining a large force in 
Iraq.
    Thank you, sir.
    Thank you, Mr. Chairman.
    The Chairman. Randy Forbes, Virginia, please.
    Mr. Forbes. Thank you, Mr. Chairman.
    Admiral Fallon, Admiral Olson, thank you so much for your 
service and for being here today, and I am going to talk quick 
because I have only got five minutes. I am going to ask you 
each just two questions.
    First of all, I believe that words do matter, and when I 
hear suggestions of a broken Army, that our troops are 
demoralized, that fighting the challenges we face makes us 
weaker, these words take a toll. I remember in the early 1960's 
hiding under my desk, cowering in the hallway because we were 
afraid we might have a nuclear attack in the United States. And 
there were some who argued we ought not to be in that fight. We 
ought to be weaker then. I am glad those voices lost.
    In the 1970's, I remember hearing how we were afraid we 
would have mutual annihilation because we were in an arms race 
with the Soviet Union. We were concerned about that and some 
that said we ought not to be in the fight. We ought to be 
weaker. I am glad those voices lost.
    In the 1990's, some of our leaders forgot that giving our 
enemies time to rest doesn't reduce the challenges we face, but 
rather sometimes increases those challenges.
    I also know the challenge that you have because, if you 
fight a challenge in one part of the world, there is always 
going to be voices that point to you and say why aren't you 
fighting a challenge in another part of the globe. Then they 
will spin the globe when you go there, and say why aren't you 
in another part of the globe. If you went to all the 
challenges, they would be saying you were stretched too thin 
and you needed to focus on one challenge, and the whole thing 
would start over again.
    And so the two questions I have for you were these: We have 
had witnesses come before this committee--and they have stated 
this unequivocally and Secretary Garing and General Casey have 
confirmed it--that the force we currently have today in Iraq is 
the most experienced, the most adaptive, the most professional 
and the most capable force we have ever fielded. That means 
more than last year, more than the year before that, more than 
the year before that, and more than the year 2000 or anytime 
before that.
    My question to each of you is do you agree that the force 
under your command is currently today the most experienced, 
adaptive, professional and capable that you have ever seen?
    And, second, while it may be difficult to define victory--
because that question was asked to you--my question to each of 
you is this:
    Admiral Fallon, can you tell me what failure would look 
like in Iraq? If we loaded our troops on your ships tomorrow 
and brought them home, what would that look like?
    And, Admiral Olson, if we loaded them on the Admiral's 
ships and brought them home tomorrow, what would that do to our 
fight against al Qaeda?
    My two questions for both of you.
    Admiral Olson. Thank you, Admiral Fallon, for the 
opportunity to speak first.
    Regarding the capability and the experience of the force, I 
will talk only about the United States Special Operations 
Forces, with which I interact every day, and the quality of the 
force is, in my view, better than it has ever been. They are 
harder, smarter, fitter, stronger, at least as motivated coming 
in as ever in history. They have the advantage of knowing what 
it is they are coming in for and how hard it is going to be for 
them, and this force is serving magnificently.
    They are more experienced every year and every day than 
they were the day before, but they are more experienced in a 
narrower set of skills. The Special Forces image of a grizzled 
John Wayne and a small team of stubble-faced, grizzled veterans 
who are roaming around the world training foreign counterparts 
is really shifting into a much younger, much less-experienced 
force in terms of the ways of the world and the kind of 
international wisdom that it takes to operate it. And a primary 
reason for the growth in our force is to get us back out into 
the rest of the world, in which we have been underrepresented 
and underexperienced as a Special Operations Forces for the 
last few years.
    Clearly, a rapid withdrawal of Special Operations Forces 
with respect to al Qaeda would be devastating in terms of the 
impact that we are having on them. There is an absolute 
dwindling of al Qaeda's capability in the places where we are 
able to work directly against them, and I think the decrease in 
violence in Iraq is directly attributed to that kind of 
activity.
    Admiral Fallon. Yes, and failure would be regression of 
Iraq back into the kind of chaos and sectarian strife that we 
saw back in 2006.
    Mr. Forbes. Thank you, both.
    Thank you, Mr. Chairman.
    Mr. Taylor [presiding]. Chair thanks the gentleman.
    Chair now recognizes the gentlewoman from California Ms. 
Tauscher.
    Ms. Tauscher. Thank you, Admirals. It is good to have you 
here. Thank you for your service, and, certainly, I want to 
thank the men and women under your commands and thank them for 
their service.
    I like and respect my colleague from Virginia, and I want 
to make it very clear that there is something about what he 
said that I agree with. I think we have the most professional 
force in the world. I think we have the best trained and, 
certainly, perhaps the most qualified volunteer force in the 
world.
    But I hope he wasn't suggesting that they are not bone 
tired, and I hope he wasn't suggesting that they are not 
overdeployed. I think everybody understands that. And I think 
everybody understands that we went into this war in Iraq 
without enough ground forces, that the painful truth is that, 
seven years later, we now know that counterinsurgency is pretty 
labor intensive.
    And I would hope that you both will quickly agree with me 
that qualifications and their strength and their training is 
not mutually exclusive to the fact that they have been 
overused, overdeployed and that we have a readiness crisis in 
our military. Do you agree?
    Admiral Olson. There is clear stress on the force, in my 
view, that has not yet manifested in the data. Our recruiting 
is up, our retention is up, the morale of the Special 
Operations Force is up as manifested in many ways. The data 
does not support my instincts--and clearly yours--that there is 
a future fragility that we have to get ahead of. We don't have 
good metrics in our services for being predictive and 
preventive. We have great programs for responding to manifested 
trauma, whether physical or psychological. We aren't as good at 
getting ahead of the problem in order to preempt it.
    Ms. Tauscher. We do know that suicide attempts are up 
dramatically and suicides are up, and that says to me that 
there is something very wrong.
    Admiral Fallon.
    Admiral Fallon. Ma'am, I would not say that we are in a 
readiness crisis at all, but I will certainly tell you that I 
think that our troops are in need of a change in the deployment 
cycle. We have had too many, from my experience, of several of 
our key segments of the troop population--senior 
noncommissioned officers (NCOs), mid to junior officers--on 
multiple rotations. I look at my commanders, and some of them 
have logged more months in Iraq in the last decade than they 
have at home by a significant amount. We recognize this.
    Our troops are doing a magnificent job, and they are--God 
bless them--they are willing to shoulder the responsibilities 
we ask. We know we need to change these rotation cycles. That 
is what is a key factor in the decision making that is going to 
be upcoming this year.
    Ms. Tauscher. Can we switch gears and talk about the poppy 
crop cultivation in Afghanistan, which is, unfortunately, up 
again--a 17 percent increase over recent years. And we have a 
basic strategy that is not unlike what we did in Colombia--or 
are trying to do in Colombia--which is to create alternative 
livelihoods for farmers, eradicate poppy crops, create 
counternarcotics units.
    General Fallon, are you satisfied that the Iraqi security 
forces, where we have areas of questions about corruption, that 
there is enough being done to be sure that the Iraqi security 
forces don't become an enabler for the kinds of poppy crop drug 
trafficking that we see and that we are not creating a long-
term problem with the kind of corruption we see in the 
government of Afghanistan and in the security forces?
    Admiral Fallon. Congresswoman, the data, I think, that we 
have available is for 2007. It remains to be seen. We are 
anxious to see how things really are this year because I have 
gotten assurances from several of the governors in Afghanistan 
that they have put in place measures last fall during the 
planting season to reduce that crop. We will see how it works 
out, but it is a complex issue.
    There is a history of cultivation here, as you know, goes 
back for hundreds of years, and it is going to be tough to 
break. We have a lot of responsibilities we have given our 
forces out there, and I would have to be honest in telling you 
that the first one is security and stability. We are certainly 
aware of the problem with poppies, and we are asking them to 
help as they can. There are some dedicated forces in the field, 
mostly from the Afghan government.
    I will tell you one new initiative that has just been 
started, and that is the Afghan army has decided to dedicate a 
battalion--a Kandak, if you would--now to just drug 
eradication. They are about midway through their training now. 
Just talked to our commanders, we are going to ensure they have 
the right equipment to go out there and actually start plowing 
stuff under. And that is a good sign, an indication of 
dedication.
    Now, there is corruption, there is no doubt about it. And I 
think one of the challenges that the Karzai government has to 
deal with is, frankly, balancing some of this, going after 
these guys that they know probably have their fingers dirty in 
here, at the same time trying to get stability and to get the 
kind of leadership that is necessary to move us forward.
    So we are well aware of it, we know it is a real problem, 
it is a plague, we have got to stop it, we could use some more 
help from the international community in a concerted way to 
approach this.
    Ms. Tauscher. Thank you.
    Mr. Taylor [presiding]. The chair recognizes the gentleman 
from Minnesota, Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here, for your testimony, 
for your many years of service and for all of those things.
    Couple of quick questions.
    Admiral Olson, I am looking at this pretty nifty document 
here, and I noticed that, picking up on the comments earlier, 
that your Air Force Special Operations Command (AFSOC)--your 
Air Force component--is decreasing in personnel because, as you 
said, you are retiring the MH-53s. You have got the CV-22s 
coming online. As you know, the MV-22s are now deployed in 
Admiral Fallon's area in Iraq, and I trust that your folks are 
looking at that deployment, as we all are.
    Is there anything we can do here--this committee, this 
Congress--to help speed up your employment, deployment, 
acquisition and so forth of the CV-22? Is it money, or are 
there other constraints that we cannot help with?
    Admiral Olson. Sir, it is in part money in terms of 
accelerating the delivery of the platforms. We are at seven 
now. We will be at eight by the end of this year. We intend to 
deploy our first four not later than January of 2009. We are 
working to accelerate that by a few weeks, if we can. And we 
do, by the way, have some people from AFSOC fully deployed with 
the Marine Corps so that we are drawing from their lessons 
learned from their first deployment.
    Ultimately, an acceleration of the program will help us 
reach our initial operational capability, and that will require 
increased funding for an acceleration of the program. But, 
again, I only fund with my budget about a quarter of the cost 
of a V-22. The rest of it is in the Air Force budget.
    Mr. Kline. Okay. Thank you very much.
    And I think we should be looking at that in this committee. 
That is a shortfall in our premiere force that, it seems to me, 
we ought to be moving quickly to correct.
    Admiral Fallon, I would like to say that I was in 
Afghanistan a couple weeks ago, and I just think our troops 
there, as everywhere, are doing absolutely magnificently. The 
progress that I saw in RC East--and particularly Khost 
province--very, very encouraging. A couple of questions did 
come up, though, and I would like to just sort of throw those 
out.
    One is the issue that Mr. Hunter was addressing, the ``who 
is in charge'' question. I know there has been some discussion 
about dual hatting--General McNeil or his replacement--to cover 
both the American OEF force and the ISAF force. Is that 
something that you are considering that you can talk about, or 
is that simply off the table?
    Admiral Fallon. I don't think there is an active discussion 
right now. When I got into this job, there was a lot of noise 
about this subject, dove into it, addressed a couple of issues 
I thought that needed attention. Since then, I have not been 
aware of a problem with this. I would much rather get activity 
in Afghanistan focused on fixing some of the things that really 
need correcting that are pretty obvious, like getting the right 
number of forces with the right equipment in the field, and so 
it is not anywhere near the top of my do list.
    Mr. Kline. Fair enough. I am not suggesting that there is a 
problem right now, but I am concerned that we have something 
that is set up that is largely dependent upon the 
personalities. I don't like the wiring diagram that I am 
looking at, and I hope that we continue to have the right 
personalities in place and it works out. But, if so, it is sort 
of in spite of the way that it is set up, again, following up 
on what Mr. Hunter said.
    Admiral Fallon. Again, I don't think it is personalities. 
We have a chain of command, reporting responsibilities, 
directives in place to tell people what to do, how to do it. I 
think they are doing their job.
    Thank you, sir.
    Mr. Kline. Good enough. Thank you, Admiral.
    Now, on the issue of troop numbers, I hope that we are not 
going to try to get in the business here--unfortunately, I am 
afraid that we will--of us deciding in this committee and this 
Congress what the troop strength ought to be day by day in 
Iraq, Afghanistan, Somalia or anyplace else. That is something 
that is in your purview, and I have some confidence that you 
are looking at that in the way that you should be.
    There is no question, though, that Secretary Gates and 
others have talked about the lack of the support from some of 
our NATO allies, and I trust that you are doing everything you 
can, and I know he is, and we should be pushing to get the rest 
of those NATO allies involved because you have got a balancing 
act here. How much do you want American troops versus NATO 
troops versus the Afghan national army, which is the most 
respected institution in Afghanistan? And so it is not, I 
think, in my judgment, just a matter of how many more U.S. 
troops that we put in there.
    Anyway, thank you very much for your excellent service and 
good work.
    And, Mr. Chairman, I yield back.
    The Chairman. Thank the gentleman.
    Mrs. Davis from California.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    And Admiral Fallon, Admiral Olson, good to have you with 
us. Thank you for your extraordinary service and, certainly, 
all the men and women that you command.
    I wanted to follow up briefly on the question of training 
for the 3,200 Marines that are going into Afghanistan. And I am 
wondering, Admiral Fallon, are you aware of or have there been 
internal discussions about the extent of interagency planning 
and training that will go into that effort?
    Admiral Fallon. Two aspects here, ma'am. First one is the 
maneuver unit. It is a coherent Marine air-ground task group 
that has actually been formed for some time. It is coming out 
of Camp Lejeune, North Carolina. It has been trained. They had 
a heads-up that they were going to be employed over there.
    When they get into the country, they are going to be--their 
function is a maneuver unit, and General McNeil will use those 
folks as he sees fit. They will be, as they get into country--
and they are getting this exposure to this now--there are other 
aspects of the mission over there that they are going to have 
to become familiar with.
    Again, this is really General McNeil's business, but how he 
uses them and to what extent, they are actually engaged in the 
other activities that would help the nation-building and 
stability and economic business. I tend to think this going to 
be his response force for security more than the others, but he 
has got those pieces, and I am sure he will fit them in.
    The other troops are going to be closer to the business of 
building institutions for the Afghan government. And this--I 
will be frank with you--it presents some challenges because the 
Marine maneuver battalion is not their first line--mission 
focus is not really nation-building, it is doing combat 
operations. The way that General Cone, who is going to employ 
these folks, is coming at this is to try to use them as an 
integrative unit, not break them up, keep them in platoon and 
company-size units and to use them as a good example in their 
mentoring for the Afghan security forces. These folks will--by 
the very nature of their tasks--have to use more of these 
interagency and international elements, and I am sure he has 
got that in mind.
    Mrs. Davis of California. Given that, I would certainly 
hope that, if there are opportunities there to bring in the 
U.S. Agency for International Development (USAID) or the State 
Department to help plan for that mission, it seems like we talk 
a lot about this, and it would be an opportunity, I think, to 
really put it into play so that people have that opportunity 
prior to actually even being in country to take----
    Admiral Fallon. I agree. If I could, just to set the 
picture here. This is not a unit that is now going to take on a 
new responsibility in a new area. They are going to be a plug, 
if you would, that falls in an arrangement that is already set, 
including all those things that you mentioned here, and they 
are going to help execute it. So they will be arriving in a 
situation that has these pieces already on the chessboard.
    Mrs. Davis of California. Do you believe that there is any 
new authority from the Congress that is needed to continue to 
do everything possible, even at this time prior to new 
legislation, to give you that authority to engage these forces 
in that way?
    Admiral Fallon. Well, since you bring it up, there is a 
proposal that would try to pull together to give us, in our 
view and Department of Defense view, more flexibility in the 
execution of those authorities that you have been generous 
enough--like 1206, 1207, things like that--the proposals, the 
building global partnership capacity--tongue twister--but that 
would give us, I think, more flexibility to blend the 1206, 
1207, the Commander's Emergency Response Program (CERP) 
authorities, which have been so useful to our troops on the 
ground to give those commanders a little more help there. We 
are very grateful for the individual authorities. If you 
consider maybe ways in which you might put this in a package 
that gives them the flexibility to move the resource around, 
that would probably be helpful.
    Thanks.
    Mrs. Davis of California. Thank you very much.
    The Chairman. Thank the gentle lady.
    Dr. Gingrey from Georgia, please.
    Let me add that, before we go vote, I hope we can ask two 
other members to ask questions. We will break for the vote and 
return immediately and pick up the questioning, and you will be 
out of here by 1:00 p.m.
    Dr. Gingrey.
    Dr. Gingrey. Mr. Chairman, thank you very much.
    Admiral Fallon, Admiral Olson, thank you for being with us 
this morning. I think that, in your present command positions, 
these probably are two of the most important, certainly in 
regard to asymmetric warfare, Central Command and Special 
Operations Command. So we are comforted knowing that you are in 
that leadership position.
    Two quick questions.
    In regard to the planned drawdown and getting back to pre-
surge levels in July of 2008 and at the same time Mahdi al-Sadr 
says, well, they will do a six-month additional cease-fire of 
his militia. It concerns me a little bit the timing that this 
cease-fire on his part will end about the time that we draw 
back down to pre-surge levels. So I am concerned about what 
might happen at that point if all of a sudden this restless 
militia decides that they are tired of sitting down and they 
are ready to stand up again. So I would like for both of you to 
discuss that a little bit, if you share my concerns.
    The other thing, the recent trip by Ahmadinejad into Iraq. 
Of course, there was a lot of posturing over domestic 
cooperation and trade and that sort of thing. From that 
perspective, I guess, that is good. But Ahmadinejad, obviously, 
took the opportunity to blast us once again and give his best 
Hugo Chavez-type rhetoric directed toward the United States, 
and I wonder what your feeling is in regard to this so-called 
new best friendship that we are seeing between Iraq and Iran 
and how that will possibly adversely affect what we are trying 
to do?
    So either one of you can start.
    Admiral Fallon. Sure. Regarding the drawdown of our forces 
and Muqtada, he is on his own timeline, and he will do what he 
does. From my view, the longer the Iraqi people get the 
experience of less violence and more stability in their lives, 
the less likely it is going to be that Muqtada is going to be 
able to encourage his militias, if you would, to revert to that 
kind of behavior.
    And what we are seeing right now is that, I think, one of 
the major factors in the increase in stability is that people 
have just gotten sick of it. They got tired of it, and they 
recognize that this sectarian violence was just a never-ending 
cycle of bad news for them, and they pushed back. And so the 
longer this goes on, the more chance they have to enjoy a more 
normal life, the less chance there is.
    Regarding Ahmadinejad's show, if you would, in the last 
couple of days, clearly posturing, maybe their new best friend 
in his view, I doubt that is the case in the view of most 
Iraqis, certainly not mine. I think people are astute enough to 
realize and recognize what is going on.
    The Iraqis have to deal with him. He is their next-door 
neighbor. They have a huge border, almost 1,000 miles, that 
they share with this country, and, frankly, there is a lot of 
potential benefit to interaction, as there is right now. I was 
on the border a couple of weeks ago and watched a very robust 
level of trade coming across. There is a lot of good news 
there. There is also bad news. As Minister Bulani, the interior 
minister, said the other day, we like the tomatoes, the 
potatoes, and the mattresses and the other things. What we 
don't like are the IEDs and the guns and the money and the 
stuff that is going to fuel the insurgency. So enough is 
enough.
    Our expectation was--and it will be interesting to see the 
cables--that the Iraqi leadership passed that message to 
Ahmadinejad and said we have had enough of that good stuff, you 
want to be our buddy, show us by your actions that this is what 
you mean.
    Dr. Gingrey. Admiral Olson.
    Admiral Olson. I would certainly disagree with the 
theatrics of it, but regional stability is important. Iraq is 
going to have to live in that neighborhood after we leave. I 
support what Admiral Fallon said completely about border issues 
and economic issues and families that live on both sides of the 
border, and at some level they have got to have some kind of a 
state-to-state relationship.
    Dr. Gingrey. Thank you very much, Mr. Chairman. I yield 
back.
    The Chairman. Thank you.
    We will call on Mr. Larsen, and then we will break for the 
vote and return.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Admirals, thanks for helping us out today.
    First question for Admiral Fallon--give you a heads up 
beforehand, I am going to ask this--I am chairing electronic 
warfare (EW) working group project with a couple other members. 
We are looking at EW and looking at trying to how to 
institutionalize support for that. But I wanted to get your 
perspective on the role of electronic warfare, the use of it, 
and maybe some of the challenges that you face in CENTCOM using 
it and perhaps a direction that we can point to to help you out 
to fix some of those challenges.
    Admiral Fallon. Probably the number-one challenge, from my 
view, is the complexity and the density of the electromagnetic 
environment, and the challenges are people have with trying to 
integrate the specific systems that they are using and not 
interfere, step on, or otherwise negate other activities. That, 
to me, is the biggest challenge I see day to day in the 
theater.
    Mr. Larsen. In terms of that, it is not just--you are 
saying it is not just a matter of people using different 
systems for these and different systems for totally different 
purposes as well?
    Admiral Fallon. Yes, exactly.
    Mr. Larsen. Right.
    Admiral Fallon. Everybody is working hard to solve tactical 
problems, and that is terrific. There is an avalanche of 
proposed solutions out there. The problem is, when they end up 
being dumped into the same box over there, General Petraeus and 
his team have a challenge to sort them all out and try to get a 
coherent----
    Mr. Larsen. And my understanding, as well, it goes beyond 
the IED issue.
    Admiral Fallon. Sure. It is the whole thing. You are trying 
to do intelligence collection, surveillance, reconnaissance, 
support the tactical arena, just do regular daily comms, and it 
is pretty dense in there.
    Mr. Larsen. Second question has to do with this operational 
pause or pause or whatever it is going to be called officially. 
Do you have a personal view on whether or not the pause would 
delay the Army's ability to move to 12-month versus 15-month 
deployments, as General Casey has argued for?
    Admiral Fallon. What I would like to do is, first, make a 
comment. As I have already said, General Petraeus is going to 
come back here in the next week or two with his 
recommendations, and we will see how that sorts out.
    I think the term ``pause'' is probably misused--
misunderstood. It seems to me that, with all of the activity 
that is about to get underway--four brigade combat teams (BCTs) 
coming out without replacement is the plan plus some regular 
rotations going in, that is an awful lot of activity. General 
Petraeus is going to have manage his pieces, if you could 
envision this, as a chessboard. He has got them all arranged in 
a way that has been very, very effective right now, takes a 
number of pieces off the table, redistributes responsibilities. 
All of these pieces going on at the same time, seems to me, 
that it would be prudent to assess kind of where we are for a 
bit and then decide what we do next. So that is what is going 
to be teed up.
    Mr. Larsen. That is happening, but with regard to the 15-
month deployment to 12-month deployment?
    Admiral Fallon. There is no doubt that we want to continue 
to draw down our forces and have the Iraqis maintain the 
security and stability, and we know that the faster we can do 
that, the quicker we are going to be able to get the Army back 
on the kind of rotation it wants to do. So I think General 
Casey is on record saying that, from his view, if we are able 
to execute the drawdown as currently planned, that should 
enable him to, later on this year, go back to 12. That sounds 
good to me. We would like to help him out in any way we can.
    Mr. Larsen. Finally, there is a lot of folks that believe 
that with over four million Iraqi refugees and internally 
displaced persons--about half and half between refugees and 
internally displaced--resetting and reintegrating those folks 
is going to be a long-term issue. And can you discuss CENTCOM's 
role and what your plans are for resettlement and 
reintegration, what kind of role you all have and that we all 
have in that?
    Admiral Fallon. I will tell you that I recently had a 
meeting with the U.N. special representatives to Iraq, His 
Excellence de Mistura--Staffan de Mistura--and really 
impressed. The guy has got it. He understands what he needs to 
do. They have taken that on as one of the U.N. As we look at 
all the things that could be done by somebody, who is going to 
primacy on things, and that is one of the things he has 
undertaken as a major focus for the U.N. So they are working 
that one. We will support them in any way we can.
    Mr. Larsen. Good. Do you anticipate CENTCOM providing 
platform assets to move people or anything like that?
    Admiral Fallon. Not now. We haven't been asked for any of 
that stuff, and I don't believe so. I think they have plenty of 
assets. For example, the Iraqi government recently sent a 
convoy of buses to Jordan to bring back--they did it all on 
their own, and we found out about it after it was in execution. 
Sounds good to me.
    Mr. Larsen. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    We will now recess for the three votes and return.
    And, gentlemen, we will be right back.
    [Recess.]
    Dr. Snyder [presiding]. Hearing will resume.
    Mr. Skelton is speaking on a bill on the floor and asked 
that we go ahead and get back to our questions and get you all 
on the road. We apologize for the inconvenience.
    Mr. Wilson for five minutes.
    Mr. Wilson. Thank you, Mr. Chairman.
    And Admiral Fallon, Admiral Olson, thank you very much for 
your service. I have a special appreciation for the success 
that you have in that I have had a son serve under your 
command, the Navy--son serving in Iraq. And so I am just very, 
very grateful for the strategy you are pursuing, for the 
success, for the equipment, the training, the personnel.
    Additionally, I want you to know that, over the weekend I 
saw firsthand that freedom is winning and, as you said, 
Admiral, at the troop level. We had the opportunity to visit in 
Afghanistan, and I visited with the 218th Brigade of the South 
Carolina Army National Guard, General Bob Livingston and the 
troops of that brigade that I served with for 28 years. And 
they are just very, very proud, as they conclude their service 
there, of training the Afghan police and army, and they feel 
like they are making a difference, and I believe they are. And 
I am very grateful that 3,200 Marines will be now joining that 
effort. That really--on what they have done--will be so 
helpful.
    Additionally, I had the opportunity to meet with President 
Karzai. It was wonderful to meet again with General McNeil. He 
was very understanding of us coming back. What a great leader 
he is. And to learn from them that the number of districts that 
have violence out of nearly 400 in Afghanistan has been reduced 
to almost just 10 percent of the districts across the country. 
And the American people need to know that the people of 
Afghanistan are very supportive in the success of our troops.
    Additionally, in Iraq we had the opportunity to meet with 
General Petraeus, to meet with Ambassador Crocker, to learn of 
the over 60 percent reduction in violence in the last year. We 
went by MV-22 to Kurdistan, met with government officials 
there. We visited in Fallujah and actually were able to walk 
the Sukh street area of Haditha, and we shook hands with 
citizens of Iraq, who, through interpreters, explained their 
appreciation for the service of the American military, the 
verification that al Qaeda has been removed and that they would 
fully resist any return of the terrorists.
    And so I want you to know that, as we go to thank the young 
people serving our country, and the best way to protect 
American families is to stop terrorism there. We go to inspire 
them; they inspire us. And we have the new greatest generation.
    Again, we were not alone--and Dr. Gingrey brought this up. 
Over the weekend President Ahmadinejad came, and, as I believe 
you correctly stated, there needs to be a good relationship 
between Iran and Iraq by trade. But I am concerned that the 
actions of President Ahmadinejad are not positive.
    Can you tell us what you can about the providing of 
explosives or rockets to terrorists in Iraq from Iran?
    Admiral Fallon. We have no doubt that Iran has provided 
both rockets of a certain type and these improvised explosive 
devices, so-called Explosively Formed Penetrators (EFPs), to 
the militias inside of Iraq. I can't tell you how much of it is 
still coming. I just don't have a sense of whether any of this 
has really slowed down. We know the level of attacks has 
decreased. Again, how much of that is Muqtada's freeze, how 
much of it is the very effective work of our own people and so 
forth, I just don't have a balance.
    But to the bigger issue of, if he is going to be a 
neighbor--and a potential friendly neighbor--they need to get 
their act together, in my opinion, and be helpful. And I think 
the Iraqi people, by and large, understand that and are pretty 
wary of the overtures. They like the good part. They don't want 
any more of the kinetic stuff.
    Mr. Wilson. Another crucial country, Pakistan--we have 
worked very closely with their military. With the elections, 
what do you anticipate in terms of our continued working with 
the military and government of Pakistan?
    Admiral Fallon. We certainly intend to make ourselves 
available and to try in every way to help them as they--there 
is a political process underway, as you know, now. We will let 
that sort out. We have given strong assurances to the Pakistan 
military (PACMIL) that we will do everything we can to assist 
them to make them more effective and more competent. They are 
helping us immensely along the border with Afghanistan, in my 
opinion.
    That is one of the reasons that the level of attacks is way 
down in eastern provinces because they have put pressure on the 
bad actors out there, and now they have got to worry about our 
people in the west and the Afghans in the west, as well as the 
PACMIL. So I think they are squeezed, and it has been overall 
helpful. There is a lot more that needs to be done, though.
    Dr. Snyder [presiding]. Mr. Courtney for five minutes.
    Mr. Courtney. Thank you, Mr. Chairman.
    I want to thank you both witnesses for their endurance and 
testimony today.
    I just want to follow up on Mr. Wilson's inquiry regarding 
Iran because, in your testimony in chief, Admiral Fallon, I 
mean, again, you identified Iran as a source of finance, 
weapons and training supports to lawless militia groups in 
Iraq. And, to me, to characterize the Iraqi government's 
actions last week as just bad theatrics is far too generous to 
that government, as far as I am concerned, and I think a lot of 
people watching that are just wondering whether we have a 
coherent policy.
    I mean, if on the one hand we have identified Iran as a 
source of weapons that are killing American soldiers, and on 
the other hand those same soldiers are propping up--or 
supporting--I shouldn't use propping up--but supporting a 
government that is treating Iran like they are literally 
kissing cousins--I mean, there was hugs and kisses--that is 
very troublesome. And I just think that--well, let me ask a 
specific question.
    Right now we are in the middle of apparently negotiating a 
Status of Forces Agreement (SOFA) with the government of Iraq. 
I hope--and maybe you can comment on this--is that, as we enter 
into that agreement, that one of the conditions that is 
hopefully being discussed is that that government, which is 
asking our troops to provide security for them, are not 
treating Iran as just a normal neighbor, that there has got to 
be some expectation from them that they are not going to 
countenance that type of activity by the Iranian government. So 
maybe you could comment on the SOFA negotiations that are going 
on now and, again, in particular, the events of last week?
    Admiral Fallon. The SOFA will be between Iraq and 
ourselves----
    Mr. Courtney. That is correct.
    Admiral Fallon [continuing]. And not Iran. I would 
certainly hope personally that they convey these exact same 
messages to the Iranians. I do recognize that, in addition to 
being their next-door neighbor, there is a lot of history here 
of a different type. During the Saddam era, many of the Iraqi 
folks and leaders, particularly from the south, took refuge in 
Iran, and so they are beholden to the Iranians for some support 
and for protection in some ways.
    I believe this is a developing relationship that is in 
development. A year ago my view was that the Iranians were 
covering every bet they could inside Iraq, throwing money at 
every group to try to make sure they had support and influence. 
I can understand that from a strategic perspective, you want to 
have influence on your next-door neighbors, but shipping the 
lethal weapons in and really going after us, using this as an 
opportunity to come after us, certainly not tolerated. We have 
sent some pretty strong messages, I think, to the Iranians on 
ground we are not going to put up with it, we catch you, you 
are--enough said on that one.
    We have tried to stiffen the Iraqis on this issue too. And 
I think that they have figured it out. They know they have got 
to figure out some way to present themselves to the Iranians, 
but I will be anxious to hear exactly what the discussions are.
    I view this last week's thing as a theater. This is acting. 
There could have been other ways to do it. Maybe they might 
have considered not extending the invitation until certain 
things were accomplished. Again, they are struggling to come up 
with their own identity. But I share your concerns that the 
demonstrated behavior of the president of Iran and the actions 
that they have taken publicly are not helping us in the region.
    Mr. Courtney. And really I am not against negotiations with 
people who--I mean, your basic point is correct that, in the 
long term this is a region that is going to have to coexist and 
countries that are going to have to coexist. It just seemed for 
the Iraqi prime minister to be standing there mute while this 
guy is carrying on about how the Americans are the problem in 
Iraq is really--that is a bitter pill, I think, for a lot of 
people who have suffered loss to sit there and watch.
    Admiral Fallon. I agree.
    Mr. Courtney. So real quick, Pakistan--is there a working 
relationship starting to get functioning between the NATO and 
the Pakistan army about the border as far as having some kind 
of real system for tracking the bad guys?
    Admiral Fallon. Afghanistan or Pakistan?
    Mr. Courtney. I am sorry. In Afghanistan, as it relates to, 
you know, Taliban coming in and out of Pakistan into 
Afghanistan. Is there, again, systems that are being developed 
so that there is real tracking and pursuit?
    Admiral Fallon. There is a lot of things going on. The U.S. 
has most of--the border between Afghanistan and Pakistan is in 
the U.S. area of responsibility. So we are on top of this and 
in the middle.
    There are a number of things that are in play. Probably the 
most productive to date is a tripartite group--ourselves, 
Afghan military, PACMIL--regularly get together and have come 
up with a series of functional guidance to the troops that 
actually work on the border to help them to cooperate more. 
There has been significant improvement.
    Dr. Snyder [presiding]. Mr. Jones for five minutes.
    Admiral Fallon. So the answer is it is improving and the 
results are very positive.
    Dr. Snyder. Mr. Jones for five minutes.
    Mr. Jones. Mr. Chairman, thank you very much.
    And I want to say to Admiral Olson thank you very much for 
coming down to Camp Lejeune a week ago for the groundbreaking 
for Marine Special Operations Command (MARSOC) and bringing 
your lovely wife with you. Very much appreciated your comments 
as well.
    Admiral Fallon, I appreciate everything that you have done 
and said, as well as Admiral Olson. You know, as I think 
Ranking Member Hunter brought this up a couple hours ago about 
NATO, and this is an issue that many people--I represent the 
3rd District--Camp Lejeune, Cherry Point Marine, Seymour 
Johnson Air Force Base.
    The issue is this: I was so--not upset because, I mean, I 
didn't know--but before the Personnel Subcommittee we had 
Secretary Chu, and I asked him a question--they are going to 
get me the answer--of the 3,200 Marines going into Afghanistan, 
what is their previous deployment history? And I didn't really 
expect to know Marine by Marine, but I want to get that 
information.
    If NATO does not step it up--and I know that Secretary 
Gates went to Germany a couple weeks ago trying to encourage 
the NATO countries to, you know, give us more of your manpower, 
help us out. What is going to be the condition of our troops in 
Afghanistan, if you are sitting before--or whoever replaces 
you--the Congress three to four years from now, and we have got 
the same situation where we are having to battle the Taliban 
and yet we are doing it with more and more Americans?
    My concern is--I mean, we have got to fight it--there is no 
question about it--but my concern is that the manpower--I have 
talked to a lot of these Marines. The commitment is still 
there. I mean, they will go today if you ask them to go. But 
there is not but so much that a person can take physically 
before they just wear out, and then that jeopardizes the 
mission there on.
    So if we don't get the help from NATO, are you concerned, 
as a military leader of this country, that, if we have got the 
same situation three years from now that we have today, that 
this country is going to be in a situation where we really have 
to push to replace?
    Admiral Fallon. Congressman Jones, I would hope that in 
three years, there are a lot of things that are different. I 
would certainly expect that we will have continued to build on 
our success in Iraq and have security and stability remain and 
our forces generally reduced from the levels they are now.
    I would expect to continue to make progress in Afghanistan 
to the point that we don't need additional U.S. forces, that 
the Afghans are in a position to take care of security and we 
don't have to worry about that.
    And I am acutely aware of the fact that we have in those 
Marine units mid-level officers and NCOs that have done 
repeated tours. The good news about the Marine Corps is there 
is, as you know, continuous turnover of the young Marines, and 
if history is, about 40 percent of these will be probably in 
their first tour. Notwithstanding that, I am very sensitive to 
the fact that the leaders just can't keep doing this. We are 
going to have to get them a break.
    So we are working this one to the best of our ability. I 
know that by me going to the Secretary and asking for this 
deployment, there is no free lunch here, that there is a cost 
in doing this, I am aware of that. It seemed to me that part of 
my rationale in requesting the forces right now is that I think 
we are in a position to really build on the success we had in 
the past summer and fall in Afghanistan and to try to move this 
ball far enough down the road that we really pick up momentum.
    So it is best I can tell you. I recognize the pressures and 
hopefully--and not just hope based on the good work that is 
being done by our people--we are going to be in a position here 
a couple years down the road.
    Mr. Jones. Mr. Chairman, I am going to try one quick 
question. I know my time is about up.
    Admiral, do you see Iraq becoming a nation in the next 10 
to 15 years as we would describe America as a nation? And let 
me real quickly--and my time is going to end--and you give me a 
yes or no.
    But I met with a captain in the Marine Corps that just got 
back three weeks ago from Iraq, and I asked him, I said, 
``Captain Lane, do you think that we will ever see Iraq as a 
nation?'' And his honest answer was probably not. He said we 
are having great success as we are dealing with the tribal 
chiefs, we are making great success. He said, but, congressman, 
he said it is just like Raleigh, North Carolina, is our 
capital, Jacksonville is our city where Camp Lejeune is, and 
that, quite frankly, the mayor of Jacksonville--the way I see 
it in Iraq--that the mayor of Jacksonville doesn't need to deal 
with Raleigh, North Carolina, capital. He has got his own 
responsibilities, own town and city. Is that really what is 
going to probably end up being the success.
    Admiral Fallon. It is going to be Iraq and not America, and 
it is going to be different for a host of reasons. I do believe 
they have the basics to be able to make themselves an entity 
that can take care of its people and function in a manner that 
people can accept as appropriate for their culture and the 
situation there in. It is not going to look like----
    Mr. Jones. I understand. I understand. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman.
    Mr. Sestak, the gentleman from Pennsylvania.
    Mr. Sestak. Thank you, Mr. Chairman.
    Good afternoon. Two quick questions, and then really the 
ones I wanted to ask.
    Just wanted the admiral to follow up on your readiness. 
Have we deployed at full strength in the past year or two? Have 
we always deployed our Operational Detachment Alpha (ODA) 
teams--operation attachment ones--and our SEAL teams at full 
strength, respectively 12 and 16, every time? Just a yes or no.
    Admiral Olson. The answer is three years ago we were not, 
and now we are.
    Mr. Sestak. Yes, sir. In the last year or two, we are not 
now; right?
    Admiral Olson. We are now.
    Mr. Sestak. Okay. And three years ago we weren't?
    Admiral Olson. Three years ago we weren't. As I said, we 
grew the capacity of our school----
    Mr. Sestak. In the last year or two? In the last year have 
we always?
    Admiral Olson. Our ODAs have been at full strength for at 
least a year.
    Mr. Sestak. SEALs?
    Admiral Olson. SEALs are not at full--the platoons that we 
deploy are full strength----
    Mr. Sestak. But I am asking SEAL teams?
    Admiral Olson [continuing]. But we take the risk in the 
back of those that aren't deploying.
    Mr. Sestak. Okay. So SEAL teams aren't there yet?
    Admiral Olson. SEAL teams are not at full strength.
    Mr. Sestak. All right.
    Admiral, and when you testified here about a year ago, I 
asked you about the readiness, as you were Pacific commander, 
and the fact that no Army unit at home is in a state of 
readiness, which hasn't changed, to deploy to Korea to back 
them up. And your answer was but we will rely upon the Air 
Force and the Navy. And, in fact, we deeper probed whether the 
precision guy and munitions were really there. They are not 
quite funded at all what they needed to be.
    I bring this up because I have no doubt we have the best 
military today, but can we do--it is not whether the question 
is whether we are best, it is whether can we do what is 
required. Are our SEAL teams able to actually deploy at full 
strength? Are we able to, Admiral, meet the timelines in the 
Pacific and elsewhere?
    I bring this up, Admiral, because ISAF has a U.S. 
requirement from NATO that we have not met for trainers and 
mentors in the Afghanistan army and police. We are 2,400 troops 
less. Why do we point at NATO, the other countries, when we 
have not met our own training requirement?
    And I bring that up because I think the question about Iraq 
people are asking is how long do we do this without a change in 
strategy? When the Taliban have changed their method of 
operating in Afghanistan, no longer frontal assaults, yet we 
see the first surface-to-air missile being used recently. And 
they are back in the ungoverned regions, where it all began, 
protecting al Qaeda.
    So why haven't we met our requirement for ISAF for trainers 
and mentors if that is where it all began?
    Admiral.
    Admiral Fallon. Congressman, I think what you are referring 
to is not really an ISAF requirement. This is the Combined 
Security Transition Command-Afghanistan (CSTC-A), the Combined 
Support Training activity on the U.S. side. And they have, in 
fact, a signal in for a couple thousand trainers. We are going 
to meet some of that requirement with this Marine brigade that 
is going in.
    Mr. Sestak. About half of it.
    Admiral Fallon. But the fact is that we have provided 
significant amount of force to ISAF to meet the NATO 
requirements.
    Mr. Sestak. But we still haven't met ours. Correct?
    Admiral Fallon. We have addressed ours. We have to make 
decisions. What is the priority of the forces----
    Mr. Sestak. Can I switch then to Iraq, because we haven't 
met our requirement, nor can we get our SEALs going, nor can we 
protect our army in Southern Korea with 5027 how it asked us 
to.
    My next question is what is your coalition strategy in Iraq 
for the south? In a sense we are going to come to a pause. We 
have limited U.S. presence in the south of Iraq. Hakim and al-
Sadr are trying to get the power. The federalism law has been 
on hold for 18 months. It expires in April. All this is about 
power down there. The coalition is leaving the south. You are 
pulling our troops down, but now have you stopped it because of 
security concerns.
    How are you going to address and what is your strategy for 
the south, like when that April deadline happens, that the 
regionalization process can now proceed, and yet we can't meet 
our requirements throughout the world of what we are being 
asked to do? I mean, you can only so long continue to say, I 
believe, Admiral, we are just balancing the different 
requirements. But sometimes it is not enough to do what is 
best. We have to do what is required. What is our strategy with 
these limited resources you have for the south?
    Admiral Fallon. Specifically in the south, since these 
provinces have been picked and sent to Iraqi control, what has 
been happening here in the last five to six months is that, as 
challenges arise, the Iraqis have been addressing them. On a 
couple of occasions, we have supported the Iraqi forces with 
enablers and with other specific assistance--Special Forces 
folks have been prominent in that role--but, by and large, the 
Iraqis are meeting their demand signal for forces.
    And they have had some challenges, and they have dealt with 
them. Nasiriyah, for example, there have been a couple of--and 
Diwaniyah--have had challenges in the past several months. I 
watched with interest to see if we were going to have to pull a 
fire brigade to help. They have been able to deal with it with 
a little bit of assistance, and that has been encouraging to 
us.
    And we have watched a couple of things on the Iraqi side. 
They have decided to put a new division down there. They 
decided to create an operational command and put a good guy 
that actually really has his act together in charge of it, they 
have been responsive, and so this is the strategy for the 
future. And as we withdraw more and more of our troops, the 
fact is we are going to have to rely on them to be able to do 
it. I think so far it is a pretty good demonstration of their 
willingness and ability to pick it up.
    The Chairman. Thank the gentleman.
    This does remind me of the Sun Tzu advice: We should never 
have more than one enemy at a time.
    Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you.
    I would like to thank you both for being here. I know it 
has been a long time and tough questions, but you understand 
our responsibility.
    Therefore, I would like to go back to Iraq right now and 
the behavior of Maliki and Ahmadinejad and our response. And I 
don't think our response saying that it was theater is strong 
enough. It is absolutely outrageous. Iraq has won our dollars--
$10 to $12 billion a month--we have sent our brave men and 
women there, we have given their lives to Iraq, and we have 
borrowed ourselves into debt--the greatest deficits in 
history--and this is what we get? They have won our dollars, 
but we did not win their hearts and minds, which has been the 
conversation that we have been having for a long time now about 
winning their hearts and minds here.
    So if we can't get the leader of Iraq to stand there and at 
least say what people would say in a bar brawl, which is, 
``Hey, leave my buddy alone,'' what are we doing there? And I 
have to ask you again, if we can't even get the leader, the one 
who picks up the checks, who understands the money that we have 
given and the effort and the blood and the sweat and the toil, 
what about the rest of them?
    Admiral Fallon. I haven't seen the reporting yet from our 
ambassador, and really this is his lane. He deals with the 
political leadership in that country. But I can tell you that, 
if we didn't have the support of many people in Iraq, we would 
have not been able to make the gains on the ground that we have 
made this year. It just wouldn't happen. The reality is, from 
my perspective, in trying to help get security and stability in 
most of this country, the people are helping. They do get it.
    And that is why I say--you know, I can't speak for all the 
Iraqi people. I can tell you that we would not have been 
successful in many of the places, including Baghdad, this past 
six or eight months if we didn't have support. I have been 
there and talked to people. I have asked them what they think. 
They have changed their minds in many cases. They didn't like 
the instability. When I was there in Baghdad, the last couple 
of trips, no questions about security, it was just other 
things--we are happy to have you here, don't leave in a hurry, 
help out these other things, help our government to provide 
those things that we need, and we will like it.
    So I am not going to apologize for any of the behavior of 
the leaders, but I can tell you that we are getting some 
significant support from the people.
    Ms. Shea-Porter. And I would say that all the success 
really is because of our terrific military's effort, and you 
talk about biting the hand that feeds you. If we can't have the 
leadership stand up and say the very simple statements in our 
support, it is pretty hard to go out and justify the burden 
that this country has carried. So I just wanted to say that.
    And that leads me to Africa Command (AFRICOM), and I 
realize that the African nations will be switched over to 
AFRICOM. But I worry about how we look there as well because we 
have lost some standing in the world, as you know, and people 
are concerned about our role in the Middle East and now in 
Africa. And when I talked to some people, I was told that long 
term we probably will be helping the various African nations 
build up a military and perhaps supplying.
    Is that what you see in the game plan? Because what I worry 
about is the instability in that region, where we see nation 
against nation, and to arm them or to help arm them in any way, 
when they are already at war often, it seems pretty 
frightening.
    Admiral Fallon. My part of Africa that I have in my area of 
responsibility is the Horn of Africa, the northeastern--eastern 
part. And in that area, I have a subordinate command, Joint 
Task Force--Horn of Africa, that is out there every day with a 
staff that engages these countries directly. We are trying to 
build their capacity for their abilities to have stability and 
security in this region.
    I can't address the rest of Africa. Frankly, I haven't 
looked at it all, but I do know that the focus of AFRICOM is 
not as nearly as much in the military domain as Central Command 
or some of our other regional commands. This is more in the 
business of nation building, it is more of helping them grow 
their capacities to be better countries, as opposed to building 
militaries. Other than that, I think I will stick to my own 
domain.
    In Horn of Africa, my intention is to work as hard as we 
can to transfer what we think is a really effective engagement 
tool for getting these countries to work with us and amongst 
themselves and transfer it to AFRICOM----
    Ms. Shea-Porter. Well, let me state that I do recognize 
that we have a role to play there and that soft power certainly 
is helpful in helping them build economic advantages, etc., is 
a good thing. I just am concerned that we could possibly do 
that through our embassies versus having a military----
    Admiral Fallon. The vast majority of our activities, even 
in the Horn of Africa, are in those nation-building areas and 
helping people.
    Ms. Shea-Porter. Okay. Thank you very much.
    Thank you.
    The Chairman. We are going to be able to finish on time, 
gentlemen. It looks like Mr. Sestak has one more question. I 
will then yield to Mr. Hunter, and I will have one more 
question, and we may go over a couple of minutes, but we are 
going to make it.
    Mr. Sestak.
    Mr. Sestak. Admiral, may I ask again a readiness issue--
global strategic readiness.
    To your point, sir, now the Army is recruiting and making 
close to its goal, but 42 percent of all our recruits are in 
the below-mental category--first time in decades--which will 
feed throughout the force for years to come. You even said that 
we need to be more engaged around the world, like Special 
Forces did. It is an intangible, but it is a risk not being out 
there.
    Admiral, then in your testimony--written statement--you 
said conditions on the ground will be a major determinant in 
Iraq. By definition, that is an open-ended commitment. How do 
you know when the stop is? It is condition based.
    How do you then signal the Iraqis--besides jaw-boning and 
watching--because that is what it sounded like your strategy 
was now for the south is ``We will watch. They call us in.'' 
But how do you motivate them to assume greater responsibility 
in something that you will know is a place where they are as 
interested in the personal fiefdoms of those 32 agencies in 
controlling everything to do something?
    And my other part of that is, therefore, are there also 
nations out there that say to us, ``Not only I am worried about 
Iran, but can't you United States engage with them also much 
more to bring about a peaceful resolution?''
    Admiral Fallon. In Iraq we are focusing on the Iraqi army 
as a priority and trying to encourage this institution to be 
representative of the whole country, and we are seeing 
significant progress. There was no doubt that a year ago many 
of the considerations for appointment of leaders were based on 
identity cards and where they came from and what they believed 
in terms of their religion or place in the country. 
Increasingly, they are making good decisions to put the best 
leaders in place.
    The army is generally representative of the country. They 
are undertaking some of these--to Chairman Hunter's comment 
earlier. They are getting smarter about it. They are deploying 
these folks in different parts of the country specifically to 
give them the experience of operating in different areas. You 
have got to start somewhere, and this one institution, which we 
think is most important for stability and security, is making 
progress in the business of neutralizing these sectarian 
things. That is our focus.
    And we are not just sitting on this. Every day our Army and 
Marine units in country are more and more sliding back and 
giving responsibility to these Iraqi units and flying close 
wing on them to bring them. Some are doing a lot better than 
others, but that process is in work all over the country, and 
it is not a template. You can't say, ``Five of these, this 
division,'' whatever, but it is in progress.
    The rest of the region, we are trying to engage everywhere, 
as you know, doing the best we can, and I think we are doing 
pretty well in a lot of countries.
    Mr. Sestak. Thank you very much.
    I just wanted to say at how long and at what cost to that 
longer-term readiness.
    Thank you.
    The Chairman. Thank the gentleman.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman, and thanks for 
presiding over this very important day here.
    And, gentlemen, thank you for your endurance.
    Going back to my original question at the beginning of the 
hearing, Admiral, it is clear that you have really got two 
overlapping combatant commands in Afghanistan. Makes this a 
somewhat unusual war-fighting theater. You have got the 
combatant command European Command (EUCOM) under General 
Craddock's command, and you have got CENTCOM under your 
command.
    Your command, the chain of command drives down through 
General Rodriguez and the American forces that are under 
Rodriguez, which is primarily--as I understand, he is the 
commander of all American forces in Afghanistan, but that is 
primarily that southeast sector, where the Americans are more 
heavily present.
    The ISAF command, which drives down to General McNeil from 
EUCOM--from General Craddock--under its chain of command drives 
through General McNeil and includes, for example, the place 
where they have had a lot of contact and a lot of--and the 
European countries that are engaged there, and I think the 
Brits and the Canadians and the Danes have taken some 
casualties there in that southern sector where the Marines are 
going. That is under EUCOM.
    So this is an unusual scenario. You have got a battlefield 
which--and I can't think of any similar situations which really 
has two separate American combatant commander chains of 
command.
    And so my question would be would it be better for a 
General McNeil, for example, to wear two hats? To be the 
commander of the ISAF forces and to also be the commander of 
the American forces in the same theater, thereby, obviously, 
allowing for a much better, I would think, integration of the 
operations that emerge from those two chains of command?
    Admiral Fallon. Congressman, if I could take a stab at this 
one more time.
    The key issue here is missions. NATO has accepted 
responsibility for one mission, and that is counterinsurgency. 
There are two other missions that, as the U.S. combatant 
commander, I have responsibility for. One is counterterrorism, 
our battle against al Qaeda and their affiliated terrorist 
groups worldwide but specifically in Afghanistan. Second is the 
nation-building mission.
    It seems incongruous, but these same NATO nations that have 
troops on the ground in most cases--and there are other 
countries there as well--are contributing to Afghan 
reconstruction and nation building, but they are doing it in a 
bilateral basis and not taking up this mission.
    If I could clarify something, General Rodriguez, the 
commander of RC East, works for General McNeil in the ISAF 
chain of command, which goes back to not EUCOM but to the NATO 
Supreme Headquarters Allied Powers Europe (SHAPE) headquarters 
in Belgium. It is strictly NATO; it is not U.S.
    Mr. Hunter. But isn't that headed at the top by General 
Craddock as supreme allied commander?
    Admiral Fallon. In his NATO hat, not in his U.S. hat.
    Mr. Hunter. His what?
    Admiral Fallon. In his NATO hat, not in his U.S. hat.
    Mr. Hunter. Right, but the same person?
    Admiral Fallon. Same person, but it is a NATO 
responsibility, NATO rules, NATO everything.
    As the U.S. person, in our system we have one person 
someplace in the world responsible for every soldier, sailor, 
airman and Marine--that is me. I deal with that for the troops 
that are assigned to NATO through General Rodriguez as the 
senior U.S. military designated officer on the ground. And if I 
have an issue dealing with the safety, security of our people--
not the tactical employment, operational employment--I deal 
with him.
    There are other commanders, though, who work directly for 
me in Afghanistan. General Cone is the commander of our 
combined support and assistance team, responsibility for a lot 
of things, most importantly the training of the Afghan security 
forces. Reports directly to me. He has to work and coordinate 
with General McNeil, Rodriguez, everybody else out there, but 
he works for me.
    General McChrystal, who is a Special Forces commander with 
responsibilities worldwide, reports to me for his assignments 
in Afghanistan. Those things also have to be coordinated with 
other commanders.
    I have another commander, General Mulholland, Special 
Forces man, who works another piece of the problem in growing 
Afghan security forces with his Special Forces separate from 
McChrystal. He reports to me as well.
    So these mission commanders that report directly to me. The 
ISAF NATO counterinsurgency mission is all in the NATO chain of 
command, they all report through McNeil, General Ramms and 
General Craddock in his NATO hat.
    Mr. Hunter. Okay. So the 3,200 Marines that are coming in--
the 2,000-plus that are going to move into that AO that 
heretofore has been occupied by the Danes, Brits, Canadians, 
where there is some fighting that is taken place, who will they 
be under?
    Admiral Fallon. The answer is two different people, not the 
same folks. The MAGTAF, the maneuver unit, is going to work for 
ISAF. They will work for General McNeil. The other people--the 
other battalion--the trainers are going to work for General 
Cone back up through me.
    Mr. Hunter. Okay. Will the chain of command for the Marines 
who are maneuver battalion, meaning they are going to be in 
contact, they are going to be undertaking military missions, 
they are going to have a chain of command up to McNeil----
    Admiral Fallon. In NATO.
    Mr. Hunter. In NATO? So their immediate commander could be 
a Brit?
    Admiral Fallon. Could be a Canadian.
    Mr. Hunter. Could be a Canadian?
    Admiral Fallon. There will be chopped--tactical, I 
understand--General McNeil's business, but I would expect he 
would probably chop tactical control forces to the Canadian 
commander if they operate in the south. Right now there is a 
Canadian general in charge down there.
    Mr. Hunter. Okay. So the Marines could be chopped to 
Canadian----
    Admiral Fallon. Tactically, yes.
    Mr. Hunter. Okay. Now in your estimation, this scenario you 
have just explained is--you think is efficient as it could be?
    Admiral Fallon. No.
    Mr. Hunter. Okay. What would you do to make it more 
efficient?
    Admiral Fallon. Is it workable? Again, priorities. This is 
not the top priority in Afghanistan. The top priority is 
coordinating those nation-building things that are, in my 
opinion, all over the map.
    The second priority is to get the people that are on the 
ground in the NATO chain of command all pulling on the oars to 
the same extent that others are, and so removing these caveats 
and removing these restrictions and letting them actually be 
effective in the full range of their capabilities are the 
priorities.
    We can figure out--and we have done--and I think it is 
reasonably, well, always open to----
    Mr. Hunter. But, now, you told me that you are not in the 
business of trying to remove caveats, that is General 
Craddock's thing.
    Admiral Fallon. They are all in the NATO chain of command.
    Mr. Hunter. Well, I guess to some degree I think that 
defines the problem that I have just tried to outline. If that 
is the case and it is important to remove those caveats but you 
are not in a position to do it, that is--although you are 
running a big piece of the operation there in Afghanistan. Why 
is that effective? Why is that good?
    Admiral Fallon. I have, I believe, been effective in 
getting the results from the commanders who work for me in the 
field. I think we are making progress in those areas. I think 
there has been progress made in the ISAF responsibilities, but 
it could be a lot better, in my opinion, if that chain of 
command could get those restrictions modified so that they had 
the full range of their capabilities.
    That doesn't impinge on me other than as a taxpayer, and as 
a commander looking at this, it could be done more effectively, 
but it has nothing to do with whether McNeil has 1 hat or 50 
hats. It has everything to do with whether those nations are 
willing to remove those caveats and let him effectively use--he 
has got every authority in the world to run that battlefield, 
but he doesn't have the individual authorities to employ those 
forces as he would like to.
    Mr. Hunter. I think that is true except I think that the 
fact that you, for example, can't weigh in to this fight to try 
to get more NATO participation--I mean, my gosh, Admiral, we 
are talking about an average of 100 people apiece per country, 
if you average it out, for the 26 NATO nations. And because we 
couldn't extract 100 people, even though we just moved 100,000 
jobs to them of American taxpayer, paid-for tanker aircraft--
couldn't extract 100 people per country, we are deploying those 
Marines.
    So in terms of leadership--if leadership is getting people 
to sign up and find common ground with your cause, which is 
what we are trying to do in this war against terror, we have 
been pretty poor in leadership. And the fact that they are able 
to deflect this question to a different chain of command 
because it is not your job--it is not your baby--I think, 
allows them to avoid these moments of truth when we might be 
able to get the Europeans to sign up for these things.
    So I think the proof is in the pudding. And not being able 
to extract a few more personnel from nations that have lots of 
money, robust industrial base, and presumably common cause in 
this war against terror, I think that denotes failure in that 
particular area, and I think part of that is because they can 
deflect these requests.
    It is still a little difficult for me to understand about 
how we put the question to them in terms of getting more people 
out there. But we will try to run that dog down and figure out, 
eventually, how that happens. But we are obviously--they have 
been able to sidestep the question, and I can see the day when 
in that southern AO, where we have got lots of contact being 
made, we may end up with an Arizona shift taking place, where 
in the end, the American Marine contingent gets followed with 
another contingent and our other allies extract themselves from 
that position and it ends up with Americans being the only guys 
that are in strong contact in that AO.
    Admiral Olson, do you have any comments on that?
    Admiral Olson. Sir, I can limit my comments to the Special 
Operations participation in ISAF, which is growing, and it is 
not a good-news story yet, but it may be on the way there.
    General Craddock has taken the step of establishing a NATO 
Special Operations coordination center and establish that 
around an American commander as the framework nation. We are 
less than half of the headquarters, and we are less than half 
of the forces assigned to ISAF within Special Operations, and 
it is becoming a little bit of a rallying point around which 
some of our NATO Special Operations forces are beginning to 
gel.
    Mr. Hunter. Okay.
    Thank you, Mr. Chairman. Thanks for the extended hearing. I 
appreciate it.
    The Chairman. You bet.
    Thank you.
    Admiral Fallon, let me ask a final question, if I may.
    You seem to be suggesting that training and equipping the 
Afghan national security force is a key to success in the 
country of Afghanistan. Yet there has been a chronic shortage 
of trainers and mentors for those Afghan forces.
    Secretary Gates recently told our committee that we are 
short about 3,000 trainers and mentors. As a result of this 
shortage, the completion date for training and equipment the 
Afghan forces is, frankly, uncertain.
    And at a hearing before the Senate Armed Services Committee 
on February 27 the Director of National Intelligence Michael 
McConnell testified that the Afghan forces remain hampered by 
insufficient training and equipment, corruption and 
absenteeism.
    Are we doing enough to address the problems? What should we 
be doing?
    Admiral Fallon. Chairman, there is an outstanding 
requirement for, I think, the number is about 2,600 trainers 
that has been on the books here for at least the 10 months or 
so I have been here. We are going to meet about half of that 
requirement in another couple of months with those Marines. 
There is substantial progress addressing each of these woes and 
ills that are cited in the various list of shortcomings.
    I am particularly encouraged by the results and the 
progress that I have seen in the Afghan army, in particular. 
The police, we have a longer way to go, and, frankly, we are 
directing most of this attention to the police now. The army is 
coming along. They are growing. They are anxious to take over.
    I could give you lots of examples of things that I have 
seen in the past year where they have demonstrated an ability. 
They are growing. They are picking it up. Each of these 
shortcomings has been addressed, and there is progress in 
virtually every area, and I think it is coming together, and I 
think that it is, in my opinion--ought to be a continuing area 
of focus because this is the number-one issue in the security 
that is going to make progress in Afghanistan.
    Notwithstanding the bigger issue, and that is governance, 
and it is the ability of President Karzai now and that 
government to pull together and to represent the people and the 
country to be able to do the things to make it a nation.
    But I think we are definitely making progress in the 
security area. Could we use a few more troops? Yes.
    The Chairman. Thank you, Admiral Olson, Admiral Fallon. 
This has been an excellent hearing. We appreciate you being 
with us and staying with us through the vote, and with that, 
you have our gratitude, and we will dismiss.
    [Whereupon, at 1:16 p.m., the committee was adjourned.]



=======================================================================




                            A P P E N D I X

                             March 5, 2008

=======================================================================




=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 5, 2008

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 44780.001
    
    [GRAPHIC] [TIFF OMITTED] 44780.002
    
    [GRAPHIC] [TIFF OMITTED] 44780.003
    
    [GRAPHIC] [TIFF OMITTED] 44780.004
    
    [GRAPHIC] [TIFF OMITTED] 44780.005
    
    [GRAPHIC] [TIFF OMITTED] 44780.006
    
    [GRAPHIC] [TIFF OMITTED] 44780.007
    
    [GRAPHIC] [TIFF OMITTED] 44780.008
    
    [GRAPHIC] [TIFF OMITTED] 44780.009
    
    [GRAPHIC] [TIFF OMITTED] 44780.010
    
    [GRAPHIC] [TIFF OMITTED] 44780.011
    
    [GRAPHIC] [TIFF OMITTED] 44780.012
    
    [GRAPHIC] [TIFF OMITTED] 44780.013
    
    [GRAPHIC] [TIFF OMITTED] 44780.014
    
    [GRAPHIC] [TIFF OMITTED] 44780.015
    
    [GRAPHIC] [TIFF OMITTED] 44780.016
    
    [GRAPHIC] [TIFF OMITTED] 44780.017
    
    [GRAPHIC] [TIFF OMITTED] 44780.018
    
    [GRAPHIC] [TIFF OMITTED] 44780.019
    
    [GRAPHIC] [TIFF OMITTED] 44780.020
    
    [GRAPHIC] [TIFF OMITTED] 44780.021
    
    [GRAPHIC] [TIFF OMITTED] 44780.022
    
    [GRAPHIC] [TIFF OMITTED] 44780.023
    
    [GRAPHIC] [TIFF OMITTED] 44780.024
    
    [GRAPHIC] [TIFF OMITTED] 44780.025
    
    [GRAPHIC] [TIFF OMITTED] 44780.026
    
    [GRAPHIC] [TIFF OMITTED] 44780.027
    
    [GRAPHIC] [TIFF OMITTED] 44780.028
    
    [GRAPHIC] [TIFF OMITTED] 44780.029
    
    [GRAPHIC] [TIFF OMITTED] 44780.030
    
    [GRAPHIC] [TIFF OMITTED] 44780.031
    
    [GRAPHIC] [TIFF OMITTED] 44780.032
    
    [GRAPHIC] [TIFF OMITTED] 44780.033
    
    [GRAPHIC] [TIFF OMITTED] 44780.034
    
    [GRAPHIC] [TIFF OMITTED] 44780.035
    
    [GRAPHIC] [TIFF OMITTED] 44780.036
    
    [GRAPHIC] [TIFF OMITTED] 44780.037
    
    [GRAPHIC] [TIFF OMITTED] 44780.038
    
    [GRAPHIC] [TIFF OMITTED] 44780.039
    
    [GRAPHIC] [TIFF OMITTED] 44780.040
    
    [GRAPHIC] [TIFF OMITTED] 44780.041
    
    [GRAPHIC] [TIFF OMITTED] 44780.042
    
    [GRAPHIC] [TIFF OMITTED] 44780.043
    
    [GRAPHIC] [TIFF OMITTED] 44780.044
    
    [GRAPHIC] [TIFF OMITTED] 44780.045
    
    [GRAPHIC] [TIFF OMITTED] 44780.046
    
    [GRAPHIC] [TIFF OMITTED] 44780.047
    
    [GRAPHIC] [TIFF OMITTED] 44780.048
    
    [GRAPHIC] [TIFF OMITTED] 44780.049
    
    [GRAPHIC] [TIFF OMITTED] 44780.050
    
    [GRAPHIC] [TIFF OMITTED] 44780.051
    
    [GRAPHIC] [TIFF OMITTED] 44780.052
    
    [GRAPHIC] [TIFF OMITTED] 44780.053
    
    [GRAPHIC] [TIFF OMITTED] 44780.054
    
    [GRAPHIC] [TIFF OMITTED] 44780.055
    
    [GRAPHIC] [TIFF OMITTED] 44780.056
    
    [GRAPHIC] [TIFF OMITTED] 44780.057
    
    [GRAPHIC] [TIFF OMITTED] 44780.058
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 5, 2008

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 44780.059
    
    [GRAPHIC] [TIFF OMITTED] 44780.060
    
    [GRAPHIC] [TIFF OMITTED] 44780.061
    
    [GRAPHIC] [TIFF OMITTED] 44780.062
    
    [GRAPHIC] [TIFF OMITTED] 44780.063
    
    [GRAPHIC] [TIFF OMITTED] 44780.064
    
    [GRAPHIC] [TIFF OMITTED] 44780.065
    
    [GRAPHIC] [TIFF OMITTED] 44780.066
    
    [GRAPHIC] [TIFF OMITTED] 44780.067
    
    [GRAPHIC] [TIFF OMITTED] 44780.068
    
    [GRAPHIC] [TIFF OMITTED] 44780.069
    
    [GRAPHIC] [TIFF OMITTED] 44780.070
    
    [GRAPHIC] [TIFF OMITTED] 44780.071
    
    [GRAPHIC] [TIFF OMITTED] 44780.072
    
    [GRAPHIC] [TIFF OMITTED] 44780.073
    
    [GRAPHIC] [TIFF OMITTED] 44780.074
    
    [GRAPHIC] [TIFF OMITTED] 44780.075
    
    [GRAPHIC] [TIFF OMITTED] 44780.076
    
    [GRAPHIC] [TIFF OMITTED] 44780.077
    
    [GRAPHIC] [TIFF OMITTED] 44780.078
    
    [GRAPHIC] [TIFF OMITTED] 44780.079
    
    [GRAPHIC] [TIFF OMITTED] 44780.080
    
    [GRAPHIC] [TIFF OMITTED] 44780.081
    
    [GRAPHIC] [TIFF OMITTED] 44780.082
    
                                  <all>

</pre></body></html>
